                                          20680                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          Control and Prevention (CDC)                            Office of the Director, CDC, 1600 Clifton                1. Electronically. You may submit
                                          announces the aforementioned meeting:                   Road, NE., Mailstop E21, Atlanta, GA 30333,           comments electronically on specific
                                                                                                  Telephone (404) 498–1194.                             recommendations and suggestions
                                            Time and Date: 1 p.m.–2:30 p.m., May 21,                The Director, Management Analysis and
                                          2008 (Closed).                                          Services Office, has been delegated the
                                                                                                                                                        through the Federal eRulemaking Portal
                                            Place: Teleconference.                                authority to sign Federal Register notices            at http://www.regulations.gov.
                                            Status: The meeting will be closed to the             pertaining to announcements of meetings and           (Attachments should be in Microsoft
                                          public in accordance with provisions set                other committee management activities, for            Word, if possible.)
                                          forth in Section 552b(c)(4) and (6), Title 5            both CDC and the Agency for Toxic                        2. By regular, express, or overnight
                                          U.S.C., and the Determination of the Director,          Substances and Disease Registry.                      mail. You may send written comments
                                          Management Analysis and Services Office,                                                                      to the following address: Office of
                                          CDC, pursuant to Public Law 92–463.                       Dated: April 9, 2008.
                                            Matters To Be Discussed: The meeting will             Elaine L. Baker,                                      Inspector General, Department of Health
                                          include the review, discussion, and                                                                           and Human Services, Attention: OIG–
                                                                                                  Director, Management Analysis and Services
                                          evaluation of ‘‘Cardiometabolic Risk Factors            Office, Centers for Disease Control and               126–PN, Room 5246, Cohen Building,
                                          among Women of Reproductive Age, PEP                    Prevention.                                           330 Independence Avenue, SW.,
                                          2008–R–07.’’
                                                                                                  [FR Doc. E8–8164 Filed 4–15–08; 8:45 am]
                                                                                                                                                        Washington, DC 20201. Please allow
                                            For Further Information Contact: Linda                                                                      sufficient time for mailed comments to
                                          Shelton, Program Specialist, Coordinating               BILLING CODE 4163–18–P
                                                                                                                                                        be received before the close of the
                                          Center for Health and Information Service,                                                                    comment period.
                                          Office of the Director, CDC, 1600 Clifton                                                                        3. By hand or courier. If you prefer,
                                          Road, NE., Mailstop E21, Atlanta, GA 30333,             DEPARTMENT OF HEALTH AND
                                          Telephone (404) 498–1194.                               HUMAN SERVICES                                        you may deliver, by hand or courier,
                                            The Director, Management Analysis and                                                                       your written comments before the close
                                          Services Office, has been delegated the                 Office of Inspector General                           of the comment period to Office of
                                          authority to sign Federal Register notices                                                                    Inspector General, Department of Health
                                          pertaining to announcements of meetings and             Draft OIG Supplemental Compliance                     and Human Services, Cohen Building,
                                          other committee management activities, for              Program Guidance for Nursing                          330 Independence Avenue, SW.,
                                          both CDC and the Agency for Toxic                       Facilities                                            Washington, DC 20201. Because access
                                          Substances and Disease Registry.                                                                              to the interior of the Cohen Building is
                                            Dated: April 9, 2008.                                 AGENCY:  Office of Inspector General                  not readily available to persons without
                                                                                                  (OIG), HHS.                                           Federal Government identification,
                                          Elaine L. Baker,
                                                                                                  ACTION: Proposed notice.                              commenters are encouraged to schedule
                                          Director, Management Analysis and Services
                                          Office, Centers for Disease Control and                 SUMMARY:    This Federal Register                     their delivery with one of our staff
                                          Prevention.                                             proposed notice seeks the comments of                 members at (202) 358–3141.
                                          [FR Doc. E8–8133 Filed 4–15–08; 8:45 am]                                                                         Inspection of Public Comments: All
                                                                                                  interested parties on a draft
                                                                                                                                                        comments received before the end of the
                                          BILLING CODE 4163–18–P                                  supplemental compliance program
                                                                                                                                                        comment period are available for
                                                                                                  guidance (CPG) for nursing facilities
                                                                                                                                                        viewing by the public. All comments
                                                                                                  developed by the Office of Inspector
                                          DEPARTMENT OF HEALTH AND                                                                                      will be posted on http://
                                                                                                  General (OIG). When OIG publishes the
                                          HUMAN SERVICES                                                                                                www.regulations.gov as soon as possible
                                                                                                  final version of this guidance, it will
                                                                                                                                                        after they have been received.
                                          Centers for Disease Control and                         supplement OIG’s prior CPG for nursing                Comments received timely will also be
                                          Prevention                                              facilities issued in 2000. This proposed              available for public inspection as they
                                                                                                  notice contains new compliance                        are received at Office of Inspector
                                          Disease, Disability, and Injury                         recommendations and an expanded                       General, Department of Health and
                                          Prevention and Control Special                          discussion of risk areas. The proposed                Human Services, Cohen Building, 330
                                          Emphasis Panel (SEP): Economic                          notice takes into account Medicare and                Independence Avenue, SW.,
                                          Incentives for Weight Loss in the Work                  Medicaid nursing facility payment                     Washington, DC 20201, Monday
                                          Place—A Pilot Study, Potential                          systems and regulations, evolving                     through Friday of each week from 8:30
                                          Extramural Project (PEP) 2008–R–26                      industry practices, current enforcement               a.m. to 4 p.m. To schedule an
                                                                                                  priorities (including the Government’s                appointment to view public comments,
                                            In accordance with Section 10(a)(2) of                heightened focus on quality of care),
                                          the Federal Advisory Committee Act                                                                            phone (202) 619–0335.
                                                                                                  and lessons learned in the area of
                                          (Pub. L. 92–463), the Centers for Disease                                                                     FOR FURTHER INFORMATION CONTACT:
                                                                                                  nursing facility compliance. When
                                          Control and Prevention (CDC)                                                                                  Amanda Walker, Associate Counsel,
                                                                                                  published, the final supplemental CPG                 Office of Counsel to the Inspector
                                          announces the aforementioned meeting.                   will provide voluntary guidelines to                  General, (202) 619–0335; or Catherine
                                            Time and Date: 1 p.m.–2 p.m., May 16,                 assist nursing facilities in identifying              Hess, Senior Counsel, Office of Counsel
                                          2008 (Closed).                                          significant risk areas and in evaluating
                                            Place: Teleconference.                                                                                      to the Inspector General, (202) 619–
                                                                                                  and, as necessary, refining ongoing                   1306.
                                            Status: The meeting will be closed to the             compliance efforts.
                                          public in accordance with provisions set                                                                      Background
                                          forth in Section 552b(c)(4) and (6), Title 5            DATES: To ensure consideration,
                                          U.S.C., and the Determination of the Director,          comments must be delivered to the                       Beginning in 1998, OIG embarked on
                                          Management Analysis and Services Office,                address provided below by no later than               a major initiative to engage the private
                                          CDC, pursuant to Public Law 92–463.                     5 p.m. on June 2, 2008.                               health care community in preventing
                                            Matters To Be Discussed: The meeting will             ADDRESSES: When commenting, please                    the submission of erroneous claims and
                                          include the review, discussion, and                     refer to file code OIG–126–PN. Because                in combating fraud and abuse in the
jlentini on PROD1PC65 with NOTICES




                                          evaluation of ‘‘Economic Incentives for
                                          Weight Loss in the Work Place—A Pilot
                                                                                                  of staff and resource limitations, we                 Federal health care programs through
                                          Study, PEP 2008–R–26.’’                                 cannot accept comments by facsimile                   voluntary compliance efforts. As part of
                                            For Further Information Contact: Linda                (FAX) transmission. You may submit                    that initiative, OIG has developed a
                                          Shelton, Program Specialist, Coordinating               comments in one of three ways (no                     series of CPGs directed at the following
                                          Center for Health and Information Service,              duplicates, please):                                  segments of the health care industry:


                                     VerDate Aug<31>2005   19:08 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00073   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
                                                                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                               20681

                                          hospitals; clinical laboratories; home                   nursing facilities.4 Specifically, we are                  set of guidelines that nursing facilities
                                          health agencies; third-party billing                     interested in suggestions regarding                        should consider when developing and
                                          companies; the durable medical                           whether our original recommendations                       implementing a new compliance
                                          equipment, prosthetics, orthotics, and                   for the basic elements of a compliance                     program or evaluating an existing one.
                                          supply industry; hospices; Medicare                      program should be updated, and, if so,                     We are mindful that many nursing
                                          Advantage (formerly known as                             how? 5 We are also seeking suggestions                     facilities have already devoted
                                          Medicare+Choice) organizations;                          regarding specific measures of                             substantial time and resources to
                                          nursing facilities; ambulance suppliers;                 compliance program effectiveness                           compliance efforts. For those nursing
                                          physicians; and pharmaceutical                           tailored to nursing facilities. For                        facilities with existing compliance
                                          manufacturers.1 It is our intent that                    example, we are considering including                      programs, this document may serve as a
                                          CPGs encourage the development and                       measures similar to those in the                           roadmap for updating or refining their
                                          use of internal controls to monitor                      Supplemental Hospital CPG and would                        compliance plans. For facilities with
                                          adherence to applicable statutes,                        like comments on the usefulness of that                    emerging compliance programs, this
                                          regulations, and program requirements.                   approach and on the specific                               supplemental CPG, read in conjunction
                                          The suggestions made in these CPGs are                   effectiveness questions that might be                      with the 2000 Nursing Facility CPG,
                                          not mandatory, and nursing facilities                    included.                                                  should facilitate discussions among
                                          should not view the CPGs as exhaustive                      We will review comments received                        facility leadership regarding the
                                          discussions of beneficial compliance                     within the above-cited timeframe,                          inclusion of specific compliance
                                          practices or relevant risk areas.                        incorporate recommendations as                             components and risk areas.
                                             OIG originally published a CPG for                    appropriate, and prepare a final version                     In drafting this supplemental CPG, we
                                          the nursing facility industry on March                   of the guidance for publication in the                     considered, among other things, the
                                          16, 2000.2 Since that time, there have                   Federal Register. The final version of                     public comments; relevant OIG and
                                          been significant changes in the way                      the guidance will also be available on                     Centers for Medicare & Medicaid
                                          nursing facilities deliver, and are                      our Web site.                                              Services (CMS) statutory and regulatory
                                          reimbursed for, health care services, as                                                                            authorities (including CMS’s regulations
                                                                                                   Draft OIG Supplemental Compliance
                                          well as significant changes in the                                                                                  governing long-term care facilities at 42
                                                                                                   Program Guidance for Nursing
                                          Federal enforcement environment and                                                                                 CFR part 483, CMS transmittals,
                                                                                                   Facilities
                                          increased concerns about quality of care                                                                            program memoranda, and other
                                          in nursing facilities. In response to these              I. Introduction                                            guidance, and the Federal fraud and
                                          developments, and in an effort to                           Continuing its efforts to promote                       abuse statutes, together with the anti-
                                          receive initial input on this guidance                   voluntary compliance programs for the                      kickback safe harbor regulations and
                                          from interested parties, OIG published a                 health care industry, the Office of                        preambles); other OIG guidance (such as
                                          notice in the Federal Register on                        Inspector General (OIG) of the                             OIG advisory opinions, special fraud
                                          January 24, 2008 seeking stakeholder                     Department of Health and Human                             alerts, bulletins, and other public
                                          comments.3 We received four                              Services (Department) publishes this                       documents); experience gained from
                                          comments, primarily from trade                           Supplemental Compliance Program                            investigations conducted by OIG’s
                                          associations, generally suggesting that                  Guidance (CPG) for Nursing Facilities.6                    Office of Investigations, the Department
                                          any guidance recognize flexibility and                   This document supplements, rather                          of Justice (DOJ), and the State Medicaid
                                          ‘‘scalability’’ concerns due to variations               than replaces, OIG’s 2000 Nursing                          Fraud Control Units; and relevant
                                          in nursing facility sizes, and                           Facility CPG, which addressed the                          reports issued by OIG’s Office of Audit
                                          encouraging a focus on resident safety                   fundamentals of establishing an                            Services and Office of Evaluation and
                                          and employee screening. Some                             effective compliance program for this                      Inspections. We also consulted with
                                          comments included legislative                            industry. 7                                                CMS, DOJ, and nursing facility resident
                                          recommendations, which are beyond                           Neither this supplemental CPG, nor                      advocates.
                                          the authority of this office.                            the original 2000 Nursing Facility CPG,                    A. Benefits of a Compliance Program
                                             To ensure full and meaningful input                   is a model compliance program. Rather,
                                          from all interested parties, we are                      the two documents collectively offer a                       A successful compliance program
                                          publishing this supplemental CPG in                                                                                 addresses the public and private sectors’
                                          draft form with a 45-day comment                            4 See e.g., 70 FR 4858, 4874 (January 31, 2005),        common goals of reducing fraud and
                                          period. We are soliciting comments on                    ‘‘OIG Supplemental Compliance Program Guidance             abuse, enhancing health care providers’
                                          all aspects of the draft CPG. We are                     for Hospitals,’’ (Supplemental Hospital CPG)               operations, improving the quality of
                                                                                                   available on our Web site at http://oig.hhs.gov/           health care services, and reducing their
                                          particularly interested in suggestions for               fraud/docs/complianceguidance/
                                          section IV, relating to structural                       012705HospSupplementalGuidance.pdf.                        overall cost. Meeting these goals
                                          elements for nursing facility compliance                    5 See 2000 Nursing Facility CPG, supra note 2.          benefits the nursing facility industry,
                                          programs, as well as self-assessment of                     6 For purposes of convenience in this guidance,         the government, and residents alike.
                                          compliance programs’ effectiveness by                    the term ‘‘nursing facility’’ or ‘‘facility’’ includes a   Compliance programs help nursing
                                                                                                   skilled nursing facility (SNF) and a nursing facility      facilities fulfill their legal duty to
                                                                                                   (NF) that meet the requirements of sections 1819
                                             1 Copies of the CPG’s are available on our Web
                                                                                                   and 1919 of the Social Security Act (Act) (42 U.S.C.       provide quality care; to refrain from
                                          site at http://www.oig.hhs.gov/fraud/                    1395i–3, 1396r), respectively, as well as entities that    submitting false or inaccurate claims or
                                          complianceguidance.html.                                 own or operate such facilities. Where appropriate,         cost information to the Federal health
                                             2 See 65 FR 14289 (March 16, 2000), ‘‘Publication     we distinguish SNFs from NFs. While long-term              care programs; and to avoid engaging in
                                          of the OIG Compliance Program Guidance for               care providers other than SNFs or NFs, such as
                                          Nursing Facilities,’’ (2000 Nursing Facility CPG)        assisted living facilities, should find this CPG           other illegal practices.
                                          available on our Web site at http://oig.hhs.gov/         useful, we recognize that they may be subject to             A nursing facility may gain important
                                          authorities/docs/cpgnf.pdf.                              different laws, rules, and regulations and,                additional benefits by voluntarily
jlentini on PROD1PC65 with NOTICES




                                             3 See 73 FR 4248 (January 24, 2008), ‘‘Solicitation   accordingly, may have different or additional risk         implementing a compliance program,
                                          of Information and Recommendations for Revising          areas and may need to adopt different compliance
                                                                                                   strategies. We encourage all long-term care
                                                                                                                                                              including:
                                          the Compliance Program Guidance for Nursing
                                          Facilities,’’ available on our Web site at http://       providers to establish and maintain effective                • Demonstrating the nursing facility’s
                                          oig.hhs.gov/authorities/docs/08/                         compliance programs.                                       commitment to honest and responsible
                                          CPG_Nursing_Facility_Solicitation.pdf.                      7See 2000 Nursing Facility CPG, supra note 2.           corporate conduct;


                                     VerDate Aug<31>2005    19:08 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00074   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM     16APN1
                                          20682                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                            • Increasing the likelihood of                        this guidance to its own particular                    beneficiaries are those who require
                                          preventing unlawful and unethical                       circumstances.                                         skilled-nursing or rehabilitation services
                                          behavior, or identifying and correcting                    In section II below, for contextual                 and receive the services from a
                                          such behavior at an early stage;                        purposes, we provide a brief overview                  Medicare certified SNF after a
                                            • Encouraging employees and others                    of the reimbursement system. In section                qualifying hospital stay of at least three
                                          to report potential problems, which                     III, entitled ‘‘Fraud and Abuse Risk                   days.9 The PPS rate is a fixed, per diem
                                          permits appropriate internal inquiry and                Areas,’’ we present several fraud and                  rate.10 The maximum benefit is 100 days
                                          corrective action and reduces the risk of               abuse risk areas that are particularly                 per ‘‘spell of illness.’’ 11
                                          False Claims Act lawsuits, and                          relevant to the nursing facility industry.                The PPS per diem rate is adjusted per
                                          administrative sanctions (e.g., penalties,              Each nursing facility should carefully                 resident to ensure that the level of
                                          assessments, and exclusion), as well as                 examine these risk areas and identify                  payment made for a particular resident
                                          State actions;                                          those that potentially affect it. Next, in             reflects the resource intensity that
                                            • Minimizing financial loss to the                    section IV, ‘‘Other Compliance                         would typically be associated with that
                                          government and taxpayers, as well as                    Considerations,’’ we offer                             resident’s clinical condition.12 This
                                          corresponding financial loss to the                     recommendations for establishing an                    methodology, referred to as the
                                          nursing facility;                                       ethical culture and for assessing and                  Resource Utilization Group (RUG)
                                            • Enhancing resident satisfaction and                 improving an existing compliance                       classification system, currently in
                                          safety through the delivery of improved                 program. Finally, in section V, ‘‘Self-                version RUG–III, uses beneficiary
                                          quality of care; and                                    Reporting,’’ we set forth the actions                  assessment data extrapolated from the
                                            • Improving the nursing facility’s                    nursing facilities should take if they                 Minimum Data Set (MDS) to assign
                                          reputation for integrity and quality,                   discover credible evidence of                          beneficiaries to one of the RUG–III
                                          increasing its market competitiveness                   misconduct.                                            groups.13 The MDS is composed of data
                                          and reputation in the community.                                                                               variables for each resident, including
                                            OIG recognizes that implementation                    II. Reimbursement Overview                             diagnoses, treatments, and an evaluation
                                          of a compliance program may not                            We begin with a brief overview of                   of the resident’s functional status,
                                          entirely eliminate improper or unethical                Medicare and Medicaid reimbursement                    which are collected via a Resident
                                          conduct from nursing facility                           for nursing facilities as context for the              Assessment Instrument (RAI).14 Such
                                          operations. However, an effective                       subsequent risk areas section. This                    assessments are conducted at
                                          compliance program demonstrates a                       overview is intended to be a summary                   established intervals throughout a
                                          nursing facility’s good faith effort to                 only. It does not establish or interpret               resident’s stay. The resident’s RUG
                                          comply with applicable statutes,                        any program rules or regulations.                      assignment and payment rate are then
                                          regulations, and other Federal health                   Nursing facilities are advised to consult              adjusted accordingly for each interval.15
                                          care program requirements, and may                      the relevant program’s payment,                           The PPS payments cover virtually all
                                          significantly reduce the risk of unlawful               coverage, and participation rules,                     of the SNF’s costs for furnishing
                                          conduct and corresponding sanctions.                    regulations, and guidance, which                       services to Medicare beneficiaries
                                          B. Application of Compliance Program                    change frequently. Any questions                       covered under Part A. Under the
                                                                                                  regarding payment, coverage, or                        ‘‘consolidated billing’’ rules, SNFs bill
                                          Guidance
                                                                                                  participation in the Medicare or                       Medicare for most of the services
                                             Given the diversity of the nursing                                                                          provided to Medicare beneficiaries in
                                                                                                  Medicaid programs should be directed
                                          facility industry, there is no single                                                                          SNF stays covered under Part A,
                                                                                                  to the relevant contractor, carrier, CMS
                                          ’’best’’ nursing facility compliance                                                                           including items and services that
                                                                                                  office, or State Medicaid agency.
                                          program. OIG recognizes the                                                                                    outside practitioners and suppliers
                                          complexities of the nursing facility                    A. Medicare                                            provide under arrangement with the
                                          industry and the differences among                         Medicare reimbursement to SNFs and                  SNF.16 The SNF is responsible for
                                          facilities. Some nursing facilities are                 NFs depends on several factors,                        paying the outside practitioners and
                                          small and may have limited resources to                 including the character of the facility,               suppliers for these services.17 Services
                                          devote to compliance measures; others                   the beneficiary’s circumstances, and the               covered by this consolidated billing
                                          are affiliated with well-established,                   type of items and services provided.
                                          large, multi-facility organizations with a              Generally speaking, SNFs are Medicare-                 or after July 1, 1998). See also CMS, ‘‘Consolidated
                                          widely dispersed work force and                                                                                Billing,’’ available on CMS’s Web site at http://
                                                                                                  certified facilities that provide extended             www.cms.hhs.gov/SNFPPS/
                                          significant resources to devote to                      skilled-nursing or rehabilitative care                 05_ConsolidatedBilling.asp.
                                          compliance.                                             under Medicare Part A. They are                          9 Sections 1812(a)(2) and 1861(i) of the Act (42
                                             Accordingly, OIG does not intend this                typically reimbursed under Part A for                  U.S.C. 1395d(a)(2), 1395x(i)).
                                          supplemental CPG to be a ‘‘one-size-fits-               the costs of most items and services,
                                                                                                                                                           10 Section 1888(e) of the Act (42 U.S.C.

                                          all’’ guidance. OIG strongly encourages                 including room, board, and ancillary
                                                                                                                                                         1395yy(e)).
                                                                                                                                                           11 Section 1812(a)(2)(A) of the Act (42 U.S.C.
                                          nursing facilities to identify and focus                items and services. In some                            1395d(a)(2)(A)).
                                          their compliance efforts on those areas                 circumstances (discussed further                         12 Section 1888(e)(4)(G)(i) of the Act (42 U.S.C.
                                          of potential concern or risk that are most              below), SNFs may receive payment                       1395yy(e)(4)(G)(i)).
                                          relevant to their organizations.                        under Medicare Part B. Facilities that                   13 Id.

                                          Compliance measures adopted by a                        are not SNFs are not reimbursed under
                                                                                                                                                           14 Sections 1819(b)(3) and 1919(b)(3) of the Act

                                          nursing facility to address identified                                                                         (42 U.S.C. 1395i–3(b)(3), 1396r(b)(3)), and their
                                                                                                  Part A. They may be reimbursed for                     implementing regulation, 42 CFR 483.20, require
                                          risk areas should be tailored to fit the                some items and services under Part B.                  nursing facilities participating in the Medicare or
                                          unique environment of the facility                         Medicare pays SNFs under a                          Medicaid programs to use a standardized RAI to
                                          (including its structure, operations,                   prospective payment system (PPS) for                   assess each nursing facility resident’s strengths and
jlentini on PROD1PC65 with NOTICES




                                          resources, the needs of its resident                                                                           needs.
                                                                                                  beneficiaries covered by the Part A                      15 See id.
                                          population, and prior enforcement                       extended care benefit.8 Covered                          16 Sections 1842(b)(6)(E) and 1862(a)(18) of the
                                          experience). In short, OIG recommends                                                                          Act (42 U.S.C. 1395u, 1395aa); Consolidated Billing,
                                          that each nursing facility adapt the                      8 Section 1888(e) of the Act (42 U.S.C. 1395yy(e))   supra note 8.
                                          objectives and principles underlying                    (noting the PPS rate applied to services provided on     17 See id.




                                     VerDate Aug<31>2005   19:08 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00075   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
                                                                       Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                       20683

                                          requirement include, by way of                          services, including therapy services, are               following areas of significant concern
                                          example, physical therapy, occupational                 not subject to consolidated billing.27                  for nursing facilities: quality of care;
                                          therapy, and speech therapy services;                   Either the supplier of the ancillary                    submission of accurate claims; Federal
                                          certain non-self-administered drugs and                 service or the facility may bill the                    anti-kickback statute; other risk areas;
                                          supplies furnished ‘‘incident to’’ a                    Medicare carrier for the Part B items and               and Health Insurance Portability and
                                          physician’s services (e.g., ointments,                  services directly.28 In these                           Accountability Act of 1996 (HIPAA)
                                          bandages, and oxygen); braces and                       circumstances, it is the joint                          privacy and security rules.
                                          orthotics; and the technical component                  responsibility of the facility and the                     This guidance does not create any
                                          of most diagnostic tests.18 These items                 supplier to ensure that only one of them                new law or legal obligations, and the
                                          and services must be billed to Medicare                 bills Medicare.                                         discussions in this guidance are not
                                          by the SNF.19                                             Part B coverage for durable medical                   intended to present detailed or
                                             The consolidated billing requirement                 equipment (DME) presents special                        comprehensive summaries of lawful or
                                          does not apply to a small number of                     circumstances because the benefit                       unlawful activity. This guidance is not
                                          excluded services, such as physician                    extends only to items furnished for use                 intended as a substitute for consultation
                                          professional fees and certain ambulance                 in a patient’s home.29 DME furnished                    with CMS, a facility’s fiscal
                                          services.20 These excluded services are                 for use in an SNF or in certain other                   intermediary or Program Safeguard
                                          separately billable to Part B, by the                   facilities providing skilled care is not                Contractor, a State Medicaid agency, or
                                          individual or entity furnishing the                     covered by Part B. Instead, such DME is                 other relevant State agencies with
                                          service. For example, professional                      covered by the Part A PPS payment or                    respect to the application and
                                          services furnished personally by a                      applicable inpatient payment.30 In some                 interpretation of payment, coverage,
                                          physician to a Part A SNF resident are                  cases, NFs that are not SNFs can be                     licensure, or other provisions that are
                                          excluded from consolidated billing, and                 considered a ‘‘home’’ for purposes of                   subject to change. Rather, this guidance
                                          are billed by the physician to the Part                 DME coverage under Part B.31                            should be used as a starting point for a
                                          B carrier.21                                                                                                    nursing facility’s legal review of its
                                             Some Medicare beneficiaries reside in                B. Medicaid
                                                                                                                                                          particular practices and for
                                          a Medicare-certified SNF, but are not                     Medicaid provides another means for                   development or refinement of policies
                                          eligible for Part A extended care benefits              nursing facility residents to pay for                   and procedures to reduce or eliminate
                                          (e.g., a beneficiary who did not have a                 skilled-nursing care, as well as room                   potential risk.
                                          qualifying hospital stay of at least three              and board in a nursing facility certified
                                          days or a beneficiary who has exhausted                 by the Government to provide services                   A. Quality of Care
                                          his or her Part A benefit). These                       to Medicaid beneficiaries. Medicaid is a                   By 2030, the number of older
                                          beneficiaries—sometimes described as                    State and Federal program that covers                   Americans is estimated to rise to 71
                                          being in ‘‘non-covered Part A stays’’—                  certain groups of low-income and                        million,32 making the aging of the U.S.
                                          may still be eligible for Part B coverage               medically-needy people. Medicaid also                   population ‘‘one of the major public
                                          of certain individual services.                         helps residents dually eligible for                     health challenges we face in the 21st
                                          Consolidated billing would not apply to                 Medicare and Medicaid pay their                         century.’’ 33 In addressing this
                                          such individual services, with the                      Medicare premiums and cost-sharing                      challenge, a national focus on the
                                          exception of therapy services.22                        amounts. Because Medicaid eligibility                   quality of health care is emerging.
                                          Physical therapy, occupational therapy,                 criteria, coverage limitations, and                        In cases that involve failure of care on
                                          and speech language pathology services                  reimbursement rates are established at                  a systemic and widespread basis, the
                                          furnished to SNF residents are always                   the State level, there is significant                   nursing facility may be liable for
                                          subject to consolidated billing.23 Claims               variation across the nation. Many States,               submitting false claims for
                                          for therapy services furnished during a                 however, offer a flat daily rate that                   reimbursement to the Government
                                          non-covered Part A stay must be                         covers room, board, and routine care for                under the Federal False Claims Act, the
                                          submitted to Medicare by the SNF                        Medicaid beneficiaries.                                 Civil Monetary Penalties Law (CMPL),
                                          itself.24 Thus, according to CMS                        III. Fraud and Abuse Risk Areas                         or other authorities that address false
                                          guidance, the SNF is reimbursed under                                                                           and fraudulent claims or statements
                                          the Medicare fee schedule for the                          This section should assist nursing
                                                                                                  facilities in their efforts to identify areas           made to the Government.34 Thus,
                                          therapy services, and is responsible for
                                          reimbursing the therapy provider.25                     of their operations that present potential                 32 Centers for Disease Control and Prevention
                                             When a beneficiary resides in a                      risks of liability under several key                    (CDC), ‘‘The State of Aging and Health in America
                                          nursing facility (or part thereof) that is              Federal fraud and abuse statutes and                    2007,’’ available on CDC’s Web site at http://
                                          not certified as an SNF by Medicare, the                regulations. This section focuses on                    www.cdc.gov/aging/pdf/saha_2007.pdf.
                                                                                                                                                             33 Id. (quoting Julie Louise Gerberding, M.D.,
                                          beneficiary is not considered an SNF                    areas that are currently of concern to the
                                                                                                                                                          MPH, Director, Centers for Disease Control and
                                          resident for Medicare billing                           enforcement community and is not                        Prevention, U.S. Department of Health and Human
                                          purposes.26 Accordingly, ancillary                      intended to address all potential risk                  Services).
                                                                                                  areas for nursing facilities. The                          34 ‘‘Listening Session: Abuse of Our Elders: How

                                            18 Section 1888(e) of the Act (42 U.S.C. 1395yy);     identification of a particular practice or              We Can Stop It: Hearing Before the Senate Special
                                          Consolidated Billing, supra note 8.                     activity in this section is not intended                Committee on Aging,’’ 110th Congress (2007)
                                            19 Id.                                                                                                        (testimony of Gregory Demske, Assistant Inspector
                                                                                                  to imply that the practice or activity is               General for Legal Affairs, Office of Inspector
                                            20 Id.
                                            21 Id.
                                                                                                  necessarily illegal in all circumstances                General, U.S. Department of Health and Human
                                            22 Section 1888(e)(2)(A) of the Act (42 U.S.C.
                                                                                                  or that it may not have a valid or lawful               Services ), available at http://aging.senate.gov/
                                                                                                  purpose. This section addresses the                     events/hr178gd.pdf; see also 18 U.S.C. 287
                                          1395yy(e)(2)(A)); CMS, ‘‘MLN Matter SE0518,’’                                                                   (concerning false, fictitious or fraudulent claims);
                                          available on CMS’s Web site at http://                                                                          18 U.S.C. 1001 (concerning statements or entries
jlentini on PROD1PC65 with NOTICES




                                          www.cms.hhs.gov/MLNMattersArticles/downloads/             27 Id.
                                                                                                                                                          generally); 18 U.S.C. 1035 (concerning false
                                          SE0518.pdf.                                               28 Id.
                                            23 Id.
                                                                                                                                                          statements relating to health care matters); 18 U.S.C.
                                                                                                    29 Section 1861(n) of the Act (42 U.S.C. 1395x(n)).   1347 (concerning health care fraud); 18 U.S.C. 1516
                                            24 MLN Matter SE0518, supra note 22.                    30 Section 1861(h)(5) of the Act (42 U.S.C.           (concerning obstruction of a Federal audit); the
                                            25 Id.                                                1395x(h)(5)).                                           Federal False Claims Act (31 U.S.C. 3729–3733);
                                            26 Id.                                                  31 Section 1861(n) of the Act (42 U.S.C. 1395x(n)).                                               Continued




                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00076   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM    16APN1
                                          20684                         Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          compliance with applicable quality of                    1. Sufficient Staffing                                   methods used to assess staffing
                                          care standards and regulations is                           OIG is aware of facilities that have                  accurately measure actual ‘‘on-the-
                                          essential for the lawful behavior and                    systematically failed to provide staff in                floor’’ staff rather than theoretical ‘‘on-
                                          success of nursing facilities.                           sufficient numbers and with appropriate                  paper’’ staff. For example, payroll
                                             Although many nursing facilities                      clinical expertise to serve their                        records that reflect actual hours and
                                          make quality a priority, facilities that                 residents. Although most facilities strive               days worked may be more useful than
                                          fail to do so, and consequently fail to                  to provide sufficient staff, nursing                     prospectively generated staff schedules.
                                          deliver quality health care, risk                        facilities must be mindful that Federal                  2. Comprehensive Resident Care Plans
                                          becoming the target of governmental                      law requires sufficient staffing necessary
                                          investigations. Highlighted below are                                                                                Development of comprehensive
                                                                                                   to attain or maintain the highest                        resident care plans is essential to
                                          common risk areas associated with the                    practicable physical, mental, and
                                          delivery of quality health care to                                                                                reducing risk. Prior OIG reports revealed
                                                                                                   psychosocial well-being of residents.36                  that a significant percentage of resident
                                          nursing facility residents that frequently               Thus, staffing numbers and staff
                                          arise in enforcement cases.                                                                                       care plans did not reflect residents’
                                                                                                   competency are critical.                                 actual care needs.39 Through its
                                             These include sufficient staffing,                       The relationship between staff ratios,
                                          comprehensive care plans, appropriate                                                                             enforcement and compliance
                                                                                                   staff competency, and quality of care is                 monitoring activities, OIG continues to
                                          use of psychotropic medications,                         complex.37 No single staffing model will
                                          medication management, and resident                                                                               see insufficient care plans and their
                                                                                                   suit every facility. A staffing model that               impact on residents as a risk area for
                                          safety. This list is not exhaustive.                     works in a nursing facility today may
                                          Moreover, nursing facilities should                                                                               nursing facilities.
                                                                                                   not meet the facility’s needs in the                        Medicare and Medicaid regulations
                                          recognize that these issues are often                    future. Nursing facilities, therefore, are
                                          inter-related. Nursing facilities that                                                                            require nursing facilities to develop a
                                                                                                   strongly encouraged to assess their                      comprehensive care plan for each
                                          attempt to address one issue will often                  staffing patterns regularly to evaluate
                                          find that they must address other areas                                                                           resident that addresses the medical,
                                                                                                   whether they have sufficient staff who                   nursing, and mental and psychosocial
                                          as well. The risk areas identified in                    are competent to care for the unique
                                          sections III.B. (Submission of Accurate                                                                           needs for each resident and includes
                                                                                                   acuity levels of their residents.                        reasonable objectives and timetables.40
                                          Claims), III.C. (Anti-Kickback), and III.D.                 Important considerations for assessing
                                          (Other Risk Areas) below are also                                                                                 Nursing facilities should ensure that
                                                                                                   staffing models include, among others,                   care planning includes all disciplines
                                          intertwined with quality of care risk                    staff skill levels, staff-to-resident ratios,
                                          areas and should be considered as well.                                                                           involved in the resident’s care.41
                                                                                                   staff turnover,38 staffing schedules,                    Perfunctory meetings or plans
                                             As a starting point, nursing facilities               disciplinary records, payroll records,
                                          should familiarize themselves with 42                                                                             developed without the full clinical team
                                                                                                   timesheets, and adverse event reports                    may create less than comprehensive
                                          CFR part 483 (part 483), which sets forth                (e.g., falls or adverse drug events), as
                                          the principal requirements for nursing                                                                            resident-centered care plans.
                                                                                                   well as interviews with staff, residents,                Inadequately prepared plans make it
                                          facility participation in the Medicare                   and residents’ family or legal guardians.
                                          and Medicaid programs. It is essential                                                                            less likely that residents will receive
                                                                                                   Facilities should ensure that the                        coordinated, multidisciplinary care.
                                          that key members of the organization
                                          understand these requirements and                                                                                 Insufficient plans jeopardize residents’
                                                                                                   25_ODF_SNFLTC.asp; CMS, State Operations
                                          support their facility’s commitment to                   Manual, available on CMS’s Web site at http://
                                                                                                                                                            well-being and risk the provision of
                                          compliance with these regulations.                       www.cms.hhs.gov/Manuals/IOM/list.asp; see also           inadequate care, medically unnecessary
                                          Targeted training for care providers,                    Medicare Quality Improvement Community,                  care services, or medically
                                                                                                   ‘‘Medicare Quality Improvement,’’ available at           inappropriate services.
                                          managers, administrative staff, officers,                http://www.medqic.org. Nursing facilities may also
                                          and directors on the requirements of                                                                                 To reduce these risks, nursing
                                                                                                   find it useful to review the CMS Quality
                                          part 483 will enable nursing facilities to               Improvement Organizations Statement of Work,             facilities should design measures to
                                          ensure that they are fulfilling their                    available at http://www.cms.hhs.gov/                     ensure an interdisciplinary and
                                          obligation to provide quality health
                                                                                                   QualityImprovementOrgs/04_9thsow.asp.                    comprehensive approach to developing
                                                                                                      36 Sections 1819(b)(4)(A) and 1919(b)(4)(A) of the
                                          care.35                                                                                                           care plans. Basic steps, such as
                                                                                                   Act (42 U.S.C. 1395i–3(b)(4)(A), 1396r(b)(4)(A)); 42
                                                                                                   CFR 483.30.
                                                                                                                                                            appropriately scheduling meetings to
                                          section 1128A of the Act (42 U.S.C. 1320a–7a)               37 For example, State nursing facility staffing       accommodate the full interdisciplinary
                                          (concerning civil monetary penalties); section           standards, which exist for the majority of States,       team, completing all clinical
                                          1128B(c) of the Act (42 U.S.C. 1320a–7b(c))              vary in types of regulated staff, the ratios of staff,   assessments before the meeting is
                                          (concerning false statements or representations with     and the facilities to which the regulations apply.       convened,42 opening lines of
                                          respect to condition or operation of institutions). In   See Jane Tilly, et al., ‘‘State Experiences with
                                          addition to the Federal criminal, civil, and             Minimum Nursing Staff Ratios for Nursing
                                                                                                                                                               39 See, e.g., OIG, OEI Report OEI–02–99–00040,
                                          administrative liability for false claims and            Facilities: Findings from Case Studies of Eight
                                          kickback violations outlined in this CPG, nursing        States’’ (November 2003) (joint paper by The Urban       ‘‘Nursing Home Resident Assessment Quality of
                                          facilities also face exposure under State laws,          Institute and the Department), available at http://      Care,’’ January 2001, available on our Web site at
                                          including criminal, civil, and administrative            aspe.hhs.gov/daltcp/reports/8statees.htm.                http://oig.hhs.gov/oei/reports/oei–02–99–00040.pdf.
                                                                                                                                                               40 42 CFR 483.20(k).
                                          sanctions.                                                  38 Nursing facilities operate in an environment of
                                             35 The requirement to deliver quality health care                                                                 41 42 CFR 483.20(k)(2)(ii) (requiring an
                                                                                                   high staff turnover where it is difficult to attract,
                                          is a continuing obligation for nursing facilities. As    train, and retain an adequate workforce. Turnover        interdisciplinary team, including the physician, a
                                          regulations change, so too should the training.          among nurse aides, who provide most of the hands-        registered nurse with responsibility for the resident,
                                          Therefore, this recommendation envisions more            on care in nursing facilities, means that residents      and other disciplines involved in the resident’s
                                          than an initial employee ‘‘orientation’’ training on     are constantly receiving care from new staff who         care).
                                          the nursing facility’s obligations to provide quality    often lack experience and knowledge of individual           42 Nursing facilities with residents with mental

                                          health care. CMS has multiple resources available        residents. Furthermore, research correlates staff        illness or mental retardation should ensure that
                                          to assist nursing facilities in developing training      shortages and insufficient training with substandard     they have the Preadmission Screening and Resident
jlentini on PROD1PC65 with NOTICES




                                          programs. See CMS, ‘‘Sharing Innovations in              care. See OIG, OEI Report OEI–01–04–00070,               Review (PASRR) screens for their residents. See 42
                                          Quality, Resources for Long Term Care,’’ available       ‘‘Emerging Practices in Nursing Homes,’’ March           CFR 483.20(m). In addition, for residents who do
                                          on CMS’s Web site at http://siq.air.org/default.aspx;    2005, available on our Web site at http://               not require specialized services, facilities should
                                          CMS, ‘‘Skilled Nursing Facilities/Long-Term Care         oig.hhs.gov/oei/reports/oei–01–04–00070.pdf              ensure that they are providing the ‘‘services of
                                          Open Door Forum,’’ available on CMS’s Web site at        (reviewing emerging practices that nursing facility      lesser intensity’’ as set forth in CMS regulations.
                                          http://www.cms.hhs.gov/OpenDoorForums/                   administrators believe reduce their staff turnover).     See 42 CFR 483.120(c). Care plan meetings can



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00077   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM      16APN1
                                                                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                       20685

                                          communication between direct care                        for the quality of drug therapy provided                 should be mindful of potential quality
                                          providers and interdisciplinary team                     in the facility. Facilities are prohibited               of care problems when adopting and
                                          members, involving the resident and the                  from using any medication as a means                     implementing policies and procedures
                                          residents’ family members or legal                       of chemical restraint for ‘‘purposes of                  to provide these services. A failure to
                                          guardian,43 and documenting the length                   discipline or convenience, and not                       manage pharmaceutical services
                                          and content of each meeting, may assist                  required to treat the resident’s medical                 properly can seriously jeopardize
                                          facilities with meeting this requirement.                symptoms.’’ 50 In addition, resident drug                resident safety, and even result in
                                             Another risk area related to care plans               regimens must be free from unnecessary                   resident deaths.
                                          includes the involvement of attending                    drugs.51 For residents who specifically                     Nursing facilities can promote
                                          physicians in resident care. Although                    require antipsychotic medications, CMS                   compliance by having in place proper
                                          the role and responsibilities of attending               regulations also require, unless                         medication management processes—
                                          physicians are governed by specific                      contraindicated, that residents receive                  including appropriate training of staff
                                          regulations,44 the nursing facility also                 gradual dose reductions and behavioral                   involved in all aspects of
                                          has a critical role—ensuring that a                      interventions aimed at reducing                          pharmaceutical care in the nursing
                                          physician supervises each resident’s                     medication use.52                                        facility—that advance patient safety,
                                          care.45 Facilities must also include the                   In light of these requirements, nursing                minimize adverse drug interactions, and
                                          attending physician in the development                   facilities should ensure that there is an                ensure that irregularities in a resident’s
                                          of the resident’s care plan.46 To fulfill                adequate indication for the use of the                   drug regimen are promptly discovered
                                          these requirements, facilities should                    medication and should carefully                          and addressed. These kinds of policies
                                          develop processes to ensure physician                    monitor, document, and review the use                    and procedures may also safeguard
                                          involvement in resident care, including                  of each resident’s psychotropic drugs.                   against potential tainting of
                                          regular resident visits that involve a                   Compliance measures could include                        pharmaceutical decisions by improper
                                          meaningful evaluation of the resident.47                 educating care providers regarding                       kickbacks.57
                                          In addition, facilities should develop                   appropriate monitoring and                                  CMS regulations require that nursing
                                          systems to ensure that irregularities                    documentation practices and auditing                     facilities employ or obtain the services
                                          noted during drug regimen reviews are                    drug regimen reviews 53 and resident                     of a licensed pharmacist to ‘‘provide
                                          reported to attending physicians.48                      care plans to determine if they                          consultation on all aspects of the
                                                                                                   incorporate an assessment of the                         provision of pharmacy services in the
                                          3. Appropriate Use of Psychotropic                       resident’s ‘‘medical, nursing, and                       facility.’’ 58 The drug regimen of each
                                          Medications                                              mental and psychosocial needs,’’ 54                      resident must be reviewed at least once
                                             Based on our enforcement and                          including the need for psychotropic                      a month by a licensed pharmacist, who
                                          compliance monitoring activities, OIG                    medications for a specific medical                       must report any irregularities
                                          has identified inappropriate use of                      condition.55 The care providers should                   discovered in a resident’s drug regimen
                                          psychotropic medications for residents                   analyze the outcomes of the provision of                 to the attending physician and the
                                          as a risk area in at least two ways—the                  care with the results of the drug regimen                director of nursing.59 Consultant
                                          prohibition against inappropriate use of                 reviews, progress notes, and monitoring                  pharmacists are also required to: (1)
                                          chemical restraints and the requirement                  of the resident’s behaviors.                             ‘‘[e]stablish a system of records of
                                          to avoid unnecessary drug usage.                                                                                  receipt and disposition of all controlled
                                             Facilities have affirmative obligations               4. Medication Management
                                                                                                                                                            drugs * * *;’’ and (2) ‘‘[d]etermine that
                                          to ensure appropriate use of                                The Act requires nursing facilities to                drug records are in order and that an
                                          psychotropic medications. Specifically,                  provide ‘‘pharmaceutical services                        account of all controlled drugs is
                                          nursing facilities must ensure that                      (including procedures that assure                        maintained and periodically
                                          psychopharmacological practices                          accurate acquiring, receiving,                           reconciled.’’ 60
                                          comport with Federal regulations and                     dispensing, and administering of all                        In many cases, the consultant
                                          generally accepted professional                          drugs and biologicals) to meet the needs                 pharmacists working in nursing
                                          standards.49 The facility is responsible                 of each resident.’’ 56 Nursing facilities                facilities are provided by long-term care
                                                                                                                                                            pharmacies in arrangements to furnish
                                          provide nursing facilities with an ideal opportunity     provide necessary care and services, including the
                                          to ensure that these obligations are met.                resident’s right to be free of unnecessary drugs); 42
                                                                                                                                                            drugs and supplies to the nursing
                                            43 Where possible, residents and their family          CFR 483.75(b) (requiring facilities to provide           facility, often on an exclusive basis.
                                          members or legal guardians should be included in         services in compliance ‘‘with all applicable Federal,    Long-term care pharmacies have
                                          the development of care and treatment plans.             State, and local laws, regulations, and codes, and       purchasing agreements with
                                          Unless the resident has been declared incompetent        with accepted professional standards and principles
                                                                                                   * * *’’).
                                                                                                                                                            pharmaceutical manufacturers and
                                          or otherwise found to be incapacitated under State
                                          law, the resident has a right to participate in his or      50 42 CFR 483.13(a).                                  contracts with health plans. As a result
                                          her care planning and treatment, as well as in the          51 42 CFR 483.25(l)(1). An unnecessary drug           of these agreements and contracts, long-
                                          changes in care or treatment. 42 CFR 483.10(d)(3).       includes any medication, including psychotropic          term care pharmacies may prefer that
                                            44 See, e.g., 42 CFR 483.40(b), (c), (e).              medications, that is excessive in dose, used             nursing facility customers use some
                                            45 42 CFR 483.40(a).                                   excessively in duration, used without adequate
                                                                                                   monitoring, used without adequate indications for
                                                                                                                                                            drugs over others. A consultant
                                            46 42 CFR 483.20(k)(2)(ii).
                                            47 42 CFR 483.40 (detailing physician services);       its use, used in the presence of adverse                 pharmacist provided by a long-term care
                                          42 CFR 483.20 (detailing facility’s role in resident     consequences, or any combination thereof. Id.
                                                                                                      52 42 CFR 483.25(l)(2).                               facilities must meet this obligation even if a
                                          assessments and care plan coordination). Although
                                          physicians may delegate some tasks to physician             53 42 CFR 483.60(c).                                  pharmacy charges a Medicare Part D copayment to
                                          assistants, nurse practitioners, or clinical nurse          54 42 CFR 483.20(k).                                  a dual eligible beneficiary who cannot afford to pay
                                          specialists, as permitted by regulations, facilities        55 42 CFR 483.25(l)(2).                               the copayment. See CMS, Question & Answer ID
                                          must still ensure that physicians supervise the care        56 Sections 1819(b)(4)(A)(iii) and                    7042, available on CMS’s Web site at http://
jlentini on PROD1PC65 with NOTICES




                                          of residents. 42 CFR 483.40.                                                                                      questions.cms.hhs.gov.
                                                                                                   1919(b)(4)(A)(iii) of the Act (42 U.S.C. 1395i–            57 For further discussion of the anti-kickback
                                            48 See 42 CFR 483.60(c).
                                                                                                   3(b)(4)(A)(iii) and 1396r(b)(4)(A)(iii)). In addition,
                                            49 See, e.g., 42 CFR 483.20(k)(3) (requiring           under 42 CFR 483.60, SNFs and NFs must ‘‘provide         statute, see section III.C. below.
                                                                                                                                                              58 42 CFR 483.60(b)(1).
                                          services that are ‘‘provided or arranged by the          routine and emergency drugs and biologicals to
                                                                                                                                                              59 42 CFR 483.60(c).
                                          facility’’ to comport with professional standards of     [their] residents, or obtain them under an agreement
                                          quality); 42 CFR 483.25 (requiring facilities to         described in [section] 483.75(h) * * *.’’ Nursing          60 42 CFR 483.60(b)(2), (3).




                                     VerDate Aug<31>2005    17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00078   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM     16APN1
                                          20686                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          pharmacy may be in a position to                        is harm caused by staff and fellow                       hotline where staff, contractors,
                                          influence prescriptions in a manner that                residents.64                                             residents, family members, visitors, and
                                          benefits the long-term care pharmacy.                                                                            others with concerns can report
                                                                                                  (a) Promoting Resident Safety
                                          The consultant pharmacist may face a                                                                             suspicions. Regardless of the reporting
                                          potential conflict of interest if a drug                   Federal regulations mandate that                      vehicle, ideally coverage for reporting
                                          prescribed for a resident is not one                    nursing facilities develop and                           and addressing resident safety issues
                                          preferred by the long-term care                         implement policies and procedures to                     would be on a constant basis (i.e., 24
                                          pharmacy.                                               prohibit mistreatment, neglect, and                      hours per day/7 days per week).
                                                                                                  abuse of residents.65 Facilities must also               Moreover, nursing facilities should
                                             To minimize these risks and improve                  thoroughly investigate and report
                                          compliance with CMS regulations,                                                                                 make clear to caregivers, facility staff,
                                                                                                  incidents to law enforcement, as                         and residents that the facility is
                                          nursing facilities should commit to                     required by State laws.66 Although
                                          robust training and monitoring on a                                                                              committed to protecting those who
                                                                                                  experts continue to debate the most                      make reports from retaliation.
                                          regular basis of all staff involved in                  effective systems for enhancing the
                                          prescribing, administering, and                                                                                     Facilities may also want to consider a
                                                                                                  reporting, investigation, and                            program to engage everyone who comes
                                          managing pharmaceuticals, including                     prosecution of nursing facility resident
                                          all consultant pharmacists. The training                                                                         in contact with nursing facility
                                                                                                  abuse, an effective compliance program                   residents—whether health care
                                          should familiarize staff with proper                    recognizes the value of a demonstrated
                                          medication management techniques. It                                                                             professionals, administrative, and
                                                                                                  internal commitment to eliminating                       custodial staff, family and friends,
                                          should also educate staff on the legal                  resident abuse.67 An effective
                                          prohibition against accepting anything                                                                           visiting therapists, or community
                                                                                                  compliance program will include                          members—in the mission of protecting
                                          of value from a pharmacy or                             policies, procedures, and practices to
                                          pharmaceutical manufacturer to                                                                                   residents. Such a program could include
                                                                                                  prevent, investigate, and respond to                     specialized training for everyone who
                                          influence the choice of a drug for a                    instances of potential resident abuse,
                                          resident or to switch a resident from one                                                                        interacts on a regular basis with
                                                                                                  neglect, or mistreatment, including                      residents on recognizing warning signs
                                          drug to another. Nursing facilities                     injuries resulting from staff-on-resident
                                          should implement policies and                                                                                    of neglect or abuse and on effective
                                                                                                  abuse and neglect, resident-on-resident                  methods to communicate with
                                          procedures for maintaining accurate                     abuse, and abuse from unknown causes.
                                          drug records and tracking medications.                                                                           potentially fearful residents in a way
                                                                                                     Confidential reporting is a key                       likely to induce candid self-reporting of
                                          In addition, nursing facilities should                  component of an effective resident                       neglect or abuse.68
                                          consider monitoring drug records for                    safety program. Such a mechanism
                                          patterns that may indicate inappropriate                enables staff, contractors, residents,                   (b) Resident Interactions
                                          drug switching or steering.                             family members, visitors, and others to                     The nursing facility industry, resident
                                             Nursing facilities should also review                report threats, abuse, mistreatment, and                 advocacy groups, and law enforcement
                                          the total compensation paid to                          other safety concerns confidentially to                  are becoming increasingly concerned
                                          consultant pharmacists (whether under                   senior staff empowered to take                           about resident abuse committed by
                                          contract with a long-term care pharmacy                 immediate action. Posters, brochures,                    fellow residents. Abuse can occur as a
                                          or employed directly by the nursing                     and online resources that encourage                      result of the failure to properly screen
                                          facility) to ensure that the compensation               readers to report suspected safety                       and assess, or the failure of staff to
                                          is not structured in any manner that                    problems to senior facility staff are                    monitor, residents at risk for aggressive
                                          reflects the volume or value of                         commonly used. Another commonly                          behavior. Such failures can jeopardize
                                          particular drugs prescribed for, or                     used compliance component for                            both the resident with aggressive
                                          administered to, patients. Nursing                      reporting violations is a dedicated                      behaviors and the resident who may be
                                          facilities should establish policies that                                                                        victimized.
                                                                                                     64 For an overview of research relating to resident
                                          make clear that all prescribing must be                                                                             Heightened awareness and monitoring
                                                                                                  abuse and neglect, see Catherine Hawes, Ph.D.,
                                          based principally on clinical efficacy                  ‘‘Elder Abuse in Residential Long-Term Care              for abuse are crucial to eradicating
                                          and appropriateness 61 and that drug                    Settings: What is Known and What Information is          resident-on-resident abuse. Nursing
                                          switches should not be made by a                        Needed?,’’ in Elder Mistreatment: Abuse, Neglect,
                                                                                                                                                           facilities can advance their mission to
                                          pharmacist without authorization from                   and Exploitation in an Aging America (National
                                                                                                  Research Council, 2003); U.S. Government                 provide a safe environment for residents
                                          the attending physician, medical                        Accountability Office (GAO), GAO Report GAO–             through targeted education relating to
                                          director, or other licensed prescriber                  02–312, ‘‘Nursing Homes: More Can Be Done to             resident-on-resident abuse (particularly
                                          (except for generic substitutions where                 Protect Residents from Abuse,’’ March 2002,
                                                                                                                                                           for staff with responsibilities for
                                          permitted by State law).                                available on GAO’s Web site at http://www.gao.gov/
                                                                                                  new.items/d02312.pdf; Administration on Aging,           admission evaluations). Thorough
                                          5. Resident Safety                                      Elder Abuse Web site, available at http://               resident assessments, comprehensive
                                                                                                  www.aoa.gov/eldfam/Elder_Rights/Elder_Abuse/             care plans, periodic resident
                                                                                                  Elder_Abuse.asp.
                                             Nursing facility residents have a legal                 65 42 CFR 483.13(c); see also 42 CFR 483.13(a).
                                                                                                                                                           assessments, and proper staffing
                                          right to be free from abuse and neglect.62                 66 Id.                                                assignments, would also assist nursing
                                          Facilities should take steps to ensure                     67 Under State mandatory reporting statutes,
                                          that they are protecting their residents                persons such as health care professionals, human            68 Facilities could explore partnering with the

                                          from these risks.63 Of particular concern               service professionals, clergy, law enforcement, and      ombudsmen and other consumer advocates in
                                                                                                  financial professionals may have a legal obligation      sponsoring or participating in special training
                                                                                                  to make a formal report to law enforcement officials     programs designed to prevent abuse. See ‘‘Elder
                                            61 The determination of clinical efficacy and
                                                                                                  or a central reporting agency if they suspect that a     Justice: Protecting Seniors from Abuse and Neglect:
                                          appropriateness of the particular drugs should          nursing facility resident is being abused or             Hearing Before the Senate Committee on Finance,’’
jlentini on PROD1PC65 with NOTICES




                                          precede, and be paramount to, the consideration of      neglected. To ensure compliance with these               107th Congress (2002) (testimony of Catherine
                                          costs.                                                  statutes, nursing facilities should consider training    Hawes, Ph.D., titled ‘‘Elder Abuse in Residential
                                            62 Sections 1819 and 1919 of the Act (42 U.S.C.
                                                                                                  relating to compliance with their relevant States’       Long-Term Care Facilities: What is Known About
                                          1351i-3 and 1396r); 42 CFR 483.10; see also 42 CFR      laws. Nursing facilities can also assist by providing    the Prevalence, Causes, and Prevention’’), available
                                          483.15 and 483.25.                                      ready access to law enforcement contact                  at http://finance.senate.gov/hearings/testimony/
                                            63 See id.                                            information.                                             061802chtest.pdf.



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00079   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM     16APN1
                                                                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                    20687

                                          facilities in their mission to provide a                 mechanisms in place to identify which                evaluation of resident case-mix data as
                                          safe environment for residents.                          State registries they must examine.                  a significant risk area for SNFs.75
                                                                                                                                                           Because of the critical role resident
                                          (c) Staff Screening                                      B. Submission of Accurate Claims
                                                                                                                                                        case-mix data plays in resident care
                                             Nursing facilities cannot employ                         Nursing facilities must submit                    planning and reimbursement, training
                                          individuals ‘‘[f]ound guilty of abusing,                 accurate claims to Federal health care               on the collection and use of case-mix
                                          neglecting, or mistreating residents,’’ or               programs. Examples of false or                       data is important. An effective
                                          individuals with ‘‘a finding entered into                fraudulent claims include claims for                 compliance program will include
                                          [a] State nurse aide registry concerning                 items not provided or not provided as                training of responsible staff to ensure
                                          abuse, neglect, mistreatment of residents                claimed, claims for services that are not            that persons collecting the data and
                                          or misappropriation of their                             medically necessary, and claims when                 those charged with analyzing and
                                          property.’’ 69 Effective recruitment,                    there has been a failure of care.                    responding to the data are
                                          screening, and training of care providers                Submitting false claims, or causing false            knowledgeable about the purpose and
                                          are essential to ensure a viable                         claims to be submitted, to Medicare or               utility of the data. Facilities must also
                                          workforce. Although no pre-                              Medicaid may subject the individual,                 ensure that data reported to the Federal
                                          employment background screening can                      the entity, or both to criminal                      Government is accurate. Both internal
                                          provide nursing facilities with absolute                 prosecution, civil penalties including               and external periodic validation of data
                                          assurances that a job applicant will not                 treble damages, and exclusion from                   may prove useful. Moreover, as
                                          commit a crime in the future, nursing                    participation in Federal health care                 authorities continue to scrutinize
                                          facilities must make reasonable efforts                  programs.                                            quality-reporting data,76 nursing
                                          to ensure that they have a workforce                        Common and longstanding risks                     facilities are well-advised to review
                                          that will maintain the safety of their                   associated with claims preparation and               such data regularly to ensure its
                                          residents.                                               submission include duplicate billing,                accuracy and to identify and address
                                             Commonly, nursing facilities screen                   insufficient documentation, and false or             potential quality of care issues.77
                                          potential employees against criminal                     fraudulent cost reports. While nursing
                                          record databases. OIG is aware that                      facilities should continue to be vigilant            2. Therapy Services
                                          there is a ‘‘great diversity in the way                  with respect to these important risk                   The provision of physical,
                                          States systematically identify, report,                  areas, we believe these risk areas are               occupational, and speech therapy
                                          and investigate suspected abuse.’’ 70                    relatively well-understood in the                    services continues to be a risk area for
                                          Nonetheless, a comprehensive                             industry, and therefore they are not                 nursing facilities. Potential problems
                                          examination of a prospective                             specifically addressed in this section.              include: (i) Improper utilization of
                                          employee’s criminal record in all States                    As reimbursement systems have                     therapy services to inflate the severity of
                                          in which the person has worked or                        evolved, OIG has uncovered other types               RUG classifications and obtain
                                          resided may provide a greater degree of                  of fraudulent transactions related to the            additional reimbursement; (ii)
                                          protection for residents.71                              provision of health care services to
                                             Verification of education, licensing,                                                                      overutilization of therapy services billed
                                                                                                   residents of nursing facilities                      on a fee-for-service basis to Part B under
                                          certifications, and training for care                    reimbursed by Medicare and Medicaid.
                                          providers can also assist nursing                                                                             consolidated billing; and (iii) stinting on
                                                                                                   In this section, we will discuss some of             therapy services provided to patients
                                          facilities in their efforts to ensure                    these risk areas. This list is not
                                          patients are provided with qualified and                                                                      covered by the Part A PPS payment.78
                                                                                                   exhaustive. It is intended to assist                 These practices may result in the
                                          skilled caregivers. Many States have                     facilities in evaluating their own risk
                                          requirements that nursing facilities                                                                          submission of false claims.79
                                                                                                   areas. In addition, section III.A. above               In addition, unnecessary therapy
                                          conduct these checks for all professional                outlines other regulatory requirements
                                          care providers, such as therapists,                                                                           services may place frail but otherwise
                                                                                                   that, if not met, may subject nursing                functioning residents at risk for physical
                                          medical directors, and nurses. Federal                   facilities to potential liability for
                                          regulations require a nursing facility to                                                                     injury, such as muscle fatigue and
                                                                                                   submission of false or fraudulent claims.            broken bones, and may obscure a
                                          check its State nurse aide registry to
                                          ensure that potential hires for nurse aide               1. Proper Reporting of Resident Case-                resident’s true condition, leading to
                                          positions have met competency                            Mix by SNFs                                          inadequate plans of care and inaccurate
                                          evaluation requirements or are                                                                                RUG classifications.80 Too few therapy
                                                                                                      We are aware of instances in which
                                          otherwise excepted from registration                     SNFs have improperly upcoded resident                  75 To the extent a State Medicaid program relies
                                          requirements.72 In addition, the facility                RUG assignments.74 The method of                     upon RUG classification, or a variation of this
                                          must also check every State nurse aide                   classifying a resident into the correct              system, to calculate its reimbursement rate, nursing
                                          registry it ‘‘believes will include                      RUG, through resident assessments,                   facilities, as defined in section 1919 of the Act (42
                                          information’’ on the individual.73 To                                                                         U.S.C. 1396r), should be aware of this risk area as
                                                                                                   requires accurate and comprehensive                  well.
                                          ensure compliance with this                              reporting about a resident’s conditions                76 See, e.g., CMS, ‘‘2007 Action Plan for (Further
                                          requirement, facilities should have                      and needs. Inaccurate reporting of data              Improvement of) Nursing Home Quality,’’
                                                                                                   could result in the misrepresentation of             September 2006, available on CMS’s Web site at
                                            69 42  CFR 483.13(c)(1)(ii).                                                                                http://www.cms.hhs.gov/
                                                                                                   the resident’s status, the submission of
                                            70 OIG,  Audit Report A–12–12–97–0003,                                                                      SurveyCertificationGenInfo/downloads/
                                          ‘‘Safeguarding Long-Term Care Residents,’’
                                                                                                   false claims, and potential enforcement              2007ActionPlan.pdf.
                                          September 1998, available on our Web site at             actions. Therefore, we have identified                 77 In addition to assisting facilities with ensuring

                                          http://oig.hhs.gov/oas/reports/aoa/d9700003.pdf.         the assessment, reporting, and                       that claims data is accurate, monitoring MDS data
                                             71 Because there is no one central repository for                                                          may assist facilities in recognizing common
                                          criminal records, there is a significant limitation to     74 A 2006 OIG report found that 22 percent of      warning signs of a systemic care problem (e.g.,
jlentini on PROD1PC65 with NOTICES




                                          searching the criminal record databases only for the     claims were upcoded, representing $542 million in    increase in or excessive pressure ulcers or falls).
                                          State in which the facility is located. A better         potential overpayments for FY 2002. OIG, OEI
                                                                                                                                                          78 There may be additional risk areas for outside

                                          practice may be to search databases for all States in    Report OEI–02–02–00830, ‘‘A Review of Nursing        therapy suppliers.
                                          which the applicant resided or was employed.             Facility Resource Utilization Groups,’’ February       79 Additional risks related to the anti-kickback
                                             72 42 CFR 483.75(e)(5).                                                                                    statute are discussed below in section III.C.
                                                                                                   2006, available on our Web site at http://
                                             73 42 CFR 483.75(e)(6).                               oig.hhs.gov/oei/reports/oei-02–02–00830.pdf.           80 See 42 CFR 483.20(b) and (k).




                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00080   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
                                          20688                         Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          services may expose residents to risk of                 prior to engaging their services against                 to attain and maintain their highest
                                          physical injury or decline in condition,                 OIG’s List of Excluded Individuals/                      practicable level of functioning.90 These
                                          resulting in potential failure of care                   Entities (LEIE) on OIG’s Web site,86 as                  services include, among others, care to
                                          problems.                                                well as the U.S. General Services                        avoid pressure ulcers, active and
                                            OIG strongly advises nursing facilities                Administration’s Excluded Parties List                   passive range of motion, ambulation,
                                          to develop policies, procedures, and                     System.87 In addition, facilities should                 fall prevention, incontinence
                                          measures to ensure that residents are                    consider implementing a process that                     management, bathing, dressing, and
                                          receiving medically appropriate therapy                  requires job applicants to disclose,                     grooming activities.91
                                          services.81 Some practices that may be                   during the pre-employment process (or                       OIG is aware of facilities that have
                                          beneficial include: requirements that                    vendors during the request for proposal                  received payment from Federal health
                                          therapy contractors provide complete                     process), whether they are excluded.                     care programs for restorative and
                                          and contemporaneous documentation of                     Facilities should strongly consider                      personal care services despite the fact
                                          each resident’s services; regular and                    periodically screening their current                     that the services were not provided or
                                          periodic reconciliation of the                           owners, officers, directors, employees,                  were so wholly deficient that they
                                          physician’s orders and the services                      contractors, and agents to ensure that                   amounted to no care at all. Federal
                                          actually provided; interviews with the                   they have not been excluded since the                    health care programs do not reimburse
                                          residents and family members to be sure                  initial screening.                                       for restorative and personal care
                                          services are delivered; and assessments                     Providers should also take steps to                   services under these circumstances.
                                          of the continued medical necessity for                   ensure that they have policies and                       Nursing facilities that fail to provide
                                          services during resident care meetings at                procedures that require removal of any                   necessary restorative and personal care
                                          which the attending physician attends.                   owner, officer, director, employee,                      services risk billing for services not
                                                                                                   contractor, or agent from responsibility                 rendered as claimed, and therefore may
                                          3. Screening for Excluded Individuals                    for, or involvement with, a provider’s                   be subject to liability under fraud and
                                          and Entities                                             business operations related to the                       abuse statutes and regulations.
                                            No Federal health care program                         Federal health care programs if the                         To avoid this risk, nursing facilities
                                          payment may be made for items or                         provider has actual notice that such a                   are strongly encouraged to have
                                          services furnished by an excluded                        person is excluded. Providers may also                   comprehensive procedures in place to
                                          individual or entity.82 This payment                     wish to consider appropriate training for                ensure that services are of an
                                          ban applies to all methods of Federal                    human resources personnel on the                         appropriate quality and level and that
                                          health care program reimbursement.                       effects of exclusion. Exclusion                          services are in fact delivered to nursing
                                          Civil monetary penalties (CMPs) may be                   continues to apply to an individual even                 facility residents. To accomplish this,
                                          imposed against any person who                           if he or she changes from one health                     facilities may wish to engage in resident
                                          arranges or contracts (by employment or                  care profession to another while                         and staff interviews, medical record
                                          otherwise) with an individual or entity                  excluded. That exclusion remains in                      reviews,92 and personal observations of
                                          for the provision of items or services for               effect until OIG has reinstated the                      care delivery. Moreover, complete and
                                          which payment may be made under a                        individual, which is not automatic.88 A                  contemporaneous documentation of
                                          Federal health care program,83 if the                    useful tool for the training is OIG’s                    services is critical to ensuring that
                                          person knows or should know that the                     Special Advisory Bulletin, titled ‘‘The                  services are rendered.
                                          employee or contractor is excluded from                  Effect of Exclusion from Participation in
                                                                                                   Federal Health Care Programs.’’ 89                       C. The Federal Anti-Kickback Statute
                                          participation in a Federal health care
                                          program.84                                               4. Restorative and Personal Care                           The Federal anti-kickback statute,
                                            To prevent hiring or contracting with                  Services                                                 section 1128B(b) of the Act, 93 places
                                          an excluded person, OIG strongly                                                                                  constraints on business arrangements
                                                                                                      Facilities must ensure that residents                 related directly or indirectly to items or
                                          advises nursing facilities to screen all                 receive appropriate restorative and
                                          prospective owners, officers, directors,                                                                          services reimbursable by Federal health
                                                                                                   personal care services to allow residents
                                          employees, contractors,85 and agents                                                                              care programs, including, but not
                                                                                                                                                            limited to, Medicare and Medicaid. The
                                                                                                   would not avoid liability for violating Medicare’s
                                             81 See OIG, OEI Report OEI–09–99–00563,
                                                                                                   prohibition on payment for services rendered by the      anti-kickback statute prohibits the
                                          ‘‘Physical, Occupational, and Speech Therapy for         excluded staff person merely by including such a         health care industry from engaging in
                                          Medicare Nursing Home Patients: Medical                  provision, requiring the vendors to screen staff may
                                          Necessity and Quality of Care Based on Treatment
                                                                                                                                                            some practices that are common in other
                                                                                                   help a nursing facility avoid engaging the services
                                          Diagnosis,’’ August 2001, available on our Web site      of excluded persons, and could be taken into
                                                                                                                                                            business sectors, such as offering or
                                          at http://oig.hhs.gov/oei/reports/oei-09–99–             account in the event of a Government enforcement         receiving gifts to reward past or
                                          00563.pdf.                                               action.                                                  potential new referrals.
                                             82 42 CFR 1001.1901. Exclusions imposed prior to         86 Available on our Web site at http://oig.hhs.gov/
                                                                                                                                                              The anti-kickback statute is a criminal
                                          August 5, 1997, cover Medicare and all State health      fraud/exclusions/listofexcluded.html.
                                          care programs (including Medicaid), but not other           87 Available at http://www.epls.gov/.
                                                                                                                                                            prohibition against remuneration (in
                                          Federal health care programs. See The Balanced              88 Reinstatement of excluded entities and
                                                                                                                                                            any form, whether direct or indirect)
                                          Budget Act of 1997 (Pub. L. 105–33) (amending            individuals is not automatic. Those wishing to           made purposefully to induce or reward
                                          section 1128 of the Act (42 U.S.C. 1320a–7) to           again participate in the Medicare, Medicaid and all      the referral or generation of Federal
                                          expand the scope of exclusions imposed by OIG).
                                             83 Such items or services could include
                                                                                                   Federal health care programs must apply for              health care program business. The anti-
                                                                                                   reinstatement and receive authorized notice from
                                          administrative, clerical, and other activities that do   OIG that reinstatement has been granted. Obtaining         90 42 CFR 483.25 (requiring facilities to provide
                                          not directly involve patient care. See section           a provider number from a Medicare contractor, a
                                          1128A(a)(6) of the Act (42 U.S.C. 1320a–7a(a)(6)).       State agency or a Federal health care program does       care and services necessary to ensure a resident’s
                                             84 Id.
                                                                                                   not reinstate eligibility to participate in those        ability to participate in activities of daily living do
                                             85 A nursing facility that relies upon third-party    programs. There are no provisions for retroactive        not diminish unless a clinical condition makes the
jlentini on PROD1PC65 with NOTICES




                                          agencies to provide temporary or contract staffing       reinstatement. See 42 CFR 1001.1901.                     decline unavoidable).
                                                                                                                                                              91 Id.
                                          should consider including provisions in its                 89 OIG, ‘‘The Effect of Exclusion From
                                                                                                                                                              92 Indicators to watch for include, but are not
                                          contracts that require the vendors to screen staff       Participation in Federal Health Care Programs,’’
                                          against OIG’s List of Excluded Individuals/Entities      September 1999, available on our Web site at http://     limited to, bedsores, falls, unexplained weight loss,
                                          before determining that they are eligible to work at     oig.hhs.gov/fraud/docs/alertsandbulletins/               and dehydration.
                                          the nursing facility. Although a nursing facility        effected.htm.                                              93 42 U.S.C. 1320a–7b.




                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00081   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM      16APN1
                                                                       Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                    20689

                                          kickback statute prohibits offering or                  present a significant potential for abuse.            corresponding regulations establish a
                                          paying anything of value for patient                    For purposes of identifying potential                 number of ‘‘safe harbors’’ for common
                                          referrals. It also prohibits offering or                kickback risks under the anti-kickback                business arrangements. The safe harbors
                                          paying of anything of value in return for               statute, the following inquiries are                  protect arrangements from liability
                                          purchasing, leasing, ordering, or                       useful:                                               under the statute. The following safe
                                          arranging for or recommending the                          • Does the nursing facility (or its                harbors are of most relevance to nursing
                                          purchase, lease, or order of any item or                affiliates or representatives) provide                facilities:
                                          service reimbursable in whole or in part                anything of value to persons or entities                 • Investment interests safe harbor (42
                                          by a Federal health care program. The                   in a position to influence or generate                CFR 1001.952(a));
                                          statute also covers the solicitation or                 Federal health care program business for                 • Space rental safe harbor (42 CFR
                                          acceptance of remuneration for referrals                the nursing facility (or its affiliates)              1001.952(b));
                                          for, or the generation of, business                     directly or indirectly?                                  • Equipment rental safe harbor (42
                                          payable by a Federal health care                           • Does the nursing facility (or its                CFR 1001.952(c));
                                          program. Liability under the anti-                      affiliates or representatives) receive                   • Personal services and management
                                          kickback statute is determined                          anything of value from persons or                     contracts safe harbor (42 CFR
                                          separately for each party involved. In                  entities for which the nursing facility               1001.952(d));
                                          addition to criminal penalties, violators               generates Federal health care program                    • Discount safe harbor (42 CFR
                                          may be subject to CMPs and exclusion                    business, directly or indirectly?                     1001.952(h));
                                          from the Federal health care programs.                     • Could one purpose of an                             • Employee safe harbor (42 CFR
                                          Nursing facilities should also be aware                 arrangement be to induce or reward the                1001.952(i));
                                          that compliance with the anti-kickback                  generation of business payable in whole                  • Electronic health records items and
                                          statute is a condition of payment under                 or in part by a Federal health care                   services (42 CFR 1001.952(y)); and
                                          Medicare and other Federal health care                  program? Importantly, under the anti-                    • Managed care and risk sharing
                                          programs.94 As such, liability may arise                kickback statute, neither a legitimate                arrangements (42 CFR 1001.952(m), (t),
                                          under the False Claims Act if the anti-                 business purpose for an arrangement                   and (u)).
                                          kickback statute violation results in the               nor a fair-market value payment will                     An arrangement must fit squarely in
                                          submission of a claim for payment                       legitimize a payment if there is also an              a safe harbor to be protected. Safe
                                          under a Federal health care program.                    illegal purpose (i.e., inducing Federal               harbor protection requires strict
                                             Nursing facilities make and receive                  health care program business).                        compliance with all applicable
                                          referrals of Federal health care program                   Any arrangement for which the                      conditions set out in the relevant
                                          business. Nursing facilities need to                    answer to any of these inquiries is                   regulation.95 Compliance with a safe
                                          ensure that these referrals comply with                 affirmative implicates the anti-kickback              harbor is voluntary. Failure to comply
                                          the anti-kickback statute. Nursing                      statute and requires careful scrutiny.                with a safe harbor does not mean an
                                          facilities may obtain referrals of Federal                 Several potentially aggravating                    arrangement is illegal per se.
                                          health care program beneficiaries from a                considerations are useful in identifying              Nevertheless, we recommend that
                                          variety of health care sources, including,              arrangements at greatest risk of                      nursing facilities structure arrangements
                                          for example, physicians and other                       prosecution. In particular, in assessing              to fit in a safe harbor whenever possible.
                                          health care professionals, hospitals and                risk, nursing facilities should ask the                  Nursing facilities should evaluate
                                          hospital discharge planners, hospices,                  following questions, among others,                    potentially problematic arrangements
                                          home health agencies, and other nursing                 about any potentially problematic                     with referral sources and referral
                                          facilities. Physicians, pharmacists, and                arrangements or practices they identify:              recipients that do not fit into a safe
                                          other health care professionals may                        • Does the arrangement or practice                 harbor by reviewing the totality of the
                                          generate referrals for items and services               have a potential to interfere with, or                facts and circumstances, including the
                                          reimbursed to the nursing facilities by                 skew, clinical decision-making?                       intent of the parties. Depending on the
                                          Federal health care programs. In                           • Does the arrangement or practice                 circumstances, some relevant factors
                                          addition, when furnishing services to                   have a potential to increase costs to                 include:
                                          residents, nursing facilities often direct              Federal health care programs or                          • Nature of the relationship between
                                          or influence referrals to others for items              beneficiaries?                                        the parties. What degree of influence do
                                          and services reimbursable by Federal                       • Does the arrangement or practice                 the parties have, directly or indirectly,
                                          health care programs. For example,                      have a potential to increase the risk of              on the generation of business for each
                                          nursing facilities may refer patients to,               overutilization or inappropriate                      other?
                                          or order items or services from,                        utilization?                                             • Manner in which participants
                                          hospices, DME companies, laboratories,                     • Does the arrangement or practice                 selected. Were parties selected to
                                          diagnostic testing facilities, long-term                raise patient safety or quality of care               participate in an arrangement in whole
                                          care pharmacies, hospitals, physicians,                 concerns?                                             or in part because of their past or
                                          other nursing facilities, and physical,                    Nursing facilities should be mindful               anticipated referrals?
                                          occupational and speech therapists. All                 of these concerns when structuring and                   • Manner in which the remuneration
                                          of these circumstances call for vigilance               reviewing arrangements. An affirmative                is determined. Does the remuneration
                                          under the anti-kickback statute.                        answer to one or more of these                        take into account, directly or indirectly,
                                             Although liability under the anti-                   questions is a red flag signaling an
                                          kickback statute ultimately turns on a                  arrangement or practice that may be                     95 Parties to an arrangement cannot obtain safe

                                          party’s intent, it is possible to identify              particularly susceptible to fraud and                 harbor protection by entering into a sham contract
                                                                                                                                                        that complies with the written agreement
                                          arrangements or practices that may                      abuse.                                                requirement of a safe harbor and appears, on paper,
                                                                                                     Nursing facilities that have identified            to meet all of the other safe harbor requirements,
jlentini on PROD1PC65 with NOTICES




                                            94 See, e.g., CMS, Form 855A, ‘‘Medicare Federal      potentially problematic arrangements or               but does not reflect the actual arrangement between
                                          Health Care Provider/Supplier Application,’’            practices can take a number of steps to               the parties. In other words, in assessing compliance
                                          Certification Statement at section 15, paragraph A.3,                                                         with a safe harbor, the question is not whether the
                                          available on CMS’s Web site at http://
                                                                                                  reduce or eliminate the risk of an anti-              terms in a written contract satisfy all of the safe
                                          www.cms.hhs.gov/CMSForms/downloads/                     kickback violation. Most importantly,                 harbor requirements, but whether the actual
                                          CMS855a.pdf.                                            the anti-kickback statute and the                     arrangement satisfies the requirements.



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00082   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
                                          20690                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          the volume or value of business                         specific parties about their particular                 free to use for a variety of purposes in
                                          generated? Is the remuneration                          business arrangements.96 A nursing                      addition to receiving test results. In that
                                          conditioned in whole or in part on                      facility concerned about an existing or                 situation the computer has a definite value to
                                                                                                                                                          the physician, and, depending on the
                                          referrals or other business generated                   proposed arrangement may request a                      circumstances, may well constitute an illegal
                                          between the parties? Is the arrangement                 binding OIG advisory opinion regarding                  inducement.97
                                          itself conditioned, directly or indirectly,             whether the arrangement violates the
                                          on the volume or value of Federal health                Federal anti-kickback statute or other                    Similarly, with respect to free
                                          care program business? Is there any                     OIG fraud and abuse authorities.                        services, OIG observed in a Special
                                          service provided other than referrals?                  Procedures for requesting an advisory                   Fraud Alert that:
                                             • Value of the remuneration. Is the                  opinion are set out at 42 CFR part 1008.                  While the mere placement of a laboratory
                                          remuneration fair-market value in an                    The safe harbor regulations (and                        employee in the physician’s office would not
                                          arm’s-length transaction for legitimate,                accompanying Federal Register                           necessarily serve as an inducement
                                          reasonable, and necessary services that                 preambles), fraud alerts and bulletins,                 prohibited by the anti-kickback statute, the
                                          are actually rendered? Is the nursing                                                                           statute is implicated when the phlebotomist
                                                                                                  advisory opinions (and instructions for                 performs additional tasks that are normally
                                          facility paying an inflated rate to a                   obtaining them, including a list of                     the responsibility of the physician’s office
                                          potential referral source? Is the nursing               frequently asked questions), and other                  staff. These tasks can include taking vital
                                          facility receiving free or below-market-                guidance are available on our Web site                  signs or other nursing functions, testing for
                                          rate items or services from a provider or               at http://oig.hhs.gov.                                  the physician’s office laboratory, or
                                          supplier? Is compensation tied, directly                   The following discussion highlights                  performing clerical services. Where the
                                          or indirectly, to Federal health care                   several known areas of potential risk                   phlebotomist performs clerical or medical
                                          program reimbursement? Is the                           under the anti-kickback statute. The                    functions not directly related to the
                                                                                                                                                          collection or processing of laboratory
                                          determination of fair-market value based                propriety of any particular arrangement                 specimens, a strong inference arises that he
                                          upon a reasonable methodology that is                   can only be determined after a detailed                 or she is providing a benefit in return for the
                                          uniformly applied and properly                          examination of the attendant facts and                  physician’s referrals to the laboratory. In
                                          documented?                                             circumstances. The identification of a                  such a case, the physician, the phlebotomist,
                                             • Nature of items or services                        given practice or activity as ‘‘suspect’’ or            and the laboratory may have exposure under
                                          provided. Are items and services                        as an area of risk does not mean it is                  the anti-kickback statute. This analysis
                                          actually needed and rendered,                           necessarily illegal or unlawful, or that it             applies equally to the placement of
                                          commercially reasonable, and necessary                                                                          phlebotomists in other health care settings,
                                                                                                  cannot be properly structured to fit in a               including nursing homes, clinics and
                                          to achieve a legitimate business                        safe harbor. It also does not mean that                 hospitals.98
                                          purpose?                                                the practice or activity is not beneficial
                                             • Potential Federal program impact.                  from a clinical, cost, or other                           The principles illustrated by each of
                                          Does the remuneration have the                          perspective. Instead, the areas identified              the above examples also apply in the
                                          potential to affect costs to any of the                 below are practices that have a potential               nursing facility context. The provision
                                          Federal health care programs or their                   for abuse and that should receive close                 of goods or services that have
                                          beneficiaries? Could the remuneration                   scrutiny from nursing facilities.                       independent value to the recipient or
                                          lead to overutilization or inappropriate                                                                        that the recipient would otherwise have
                                          utilization?                                            1. Free Goods and Services                              to provide at its own expense confers a
                                             • Potential conflicts of interest.                      OIG has a longstanding concern about                 benefit on the recipient. This benefit
                                          Would acceptance of the remuneration                    the provision of free goods or services                 may constitute prohibited remuneration
                                          diminish, or appear to diminish, the                    to an existing or potential referral                    under the anti-kickback statute, if one
                                          objectivity of professional judgment?                   source. There is a substantial risk that                purpose of the remuneration is to
                                          Are there patient safety or quality-of-                 free goods or services may be used as a                 generate referrals of Federal health care
                                          care concerns? If the remuneration                      vehicle to disguise or confer an                        program business.
                                          relates to the dissemination of                         unlawful payment for referrals of                         Examples of suspect free goods and
                                          information, is the information                         Federal health care program business.                   services arrangements that warrant
                                          complete, accurate, and not misleading?                 For example, OIG gave the following                     careful scrutiny include:
                                             • Manner in which the arrangement                                                                              • Pharmaceutical consultant services,
                                                                                                  warning about free computers in the
                                          is documented. Is the arrangement                                                                               medication management, or supplies
                                                                                                  preamble to the 1991 safe harbor
                                          properly and fully documented in                                                                                offered by a pharmacy;
                                                                                                  regulations:                                              • Infection control, chart review, or
                                          writing? Are the nursing facilities and
                                                                                                    A related issue is the practice of giving             other services offered by laboratories or
                                          outside providers and suppliers                         away free computers. In some cases the
                                          documenting the items and services                                                                              other suppliers;
                                                                                                  computer can only be used as part of a                    • Equipment, computers, or software
                                          they provide? Is the nursing facility                   particular service that is being provided, for
                                          monitoring items and services provided                                                                          applications 99 that have independent
                                                                                                  example, printing out the results of
                                          by outside providers and suppliers? Are                 laboratory tests. In this situation, it appears         value to the nursing facility;
                                          arrangements actually conducted                         that the computer has no independent value
                                                                                                                                                             97 56 FR 35952 and 35978 (July 29, 1991),
                                          according to the terms of the written                   apart from the service being provided and
                                                                                                  that the purpose of the free computer is not            ‘‘Medicare and State Health Care Programs: Fraud
                                          agreements? It is the substance, not the                                                                        and Abuse; OIG Anti-Kickback Provisions,’’
                                                                                                  to induce an act that is prohibited by the
                                          written form, of an arrangement that is                 statute * * * In contrast, sometimes the
                                                                                                                                                          available on our Web site at http://oig.hhs.gov/
                                          determinative.                                                                                                  fraud/docs/safeharborregulations/072991.htm.
                                                                                                  computer that is given away is a regular                   98 59 FR 65372, 65377 (December 19, 1994),
                                             These inquiries—and appropriate                      personal computer, which the physician is               ‘‘Publication of OIG Special Fraud Alerts,’’
                                          follow-up inquiries—can help nursing                                                                            available on our Web site at http://oig.hhs.gov/
                                          facilities identify, address, and avoid                   96 While informative for guidance purposes, an        fraud/docs/alertsandbulletins/121994.html.
jlentini on PROD1PC65 with NOTICES




                                          problematic arrangements.                               OIG advisory opinion is binding only with respect          99 There is a safe harbor for electronic health

                                             Available OIG guidance on the anti-                  to the particular party or parties that requested the   records software arrangements at 42 CFR
                                                                                                  opinion. The analyses and conclusions set forth in      1001.952(y), which can be used by nursing
                                          kickback statute includes OIG Special                   OIG advisory opinions are fact-specific.                facilities. The safe harbor is available if all of its
                                          Fraud Alerts and advisory bulletins.                    Accordingly, different facts may lead to different      conditions are satisfied. The safe harbor does not
                                          OIG also issues advisory opinions to                    results.                                                protect free hardware or equipment.



                                     VerDate Aug<31>2005   19:08 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00083   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM    16APN1
                                                                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                             20691

                                            • DME or supplies offered by DME                       (b) Physician Services                                 exception covers only reductions in the
                                          suppliers for patients covered by the                                                                           product’s or service’s price.
                                          SNF Part A benefit;                                         Nursing facilities also arrange for
                                                                                                   physicians to provide medical director,                   In conducting business, nursing
                                            • A laboratory phlebotomist                                                                                   facilities routinely purchase items and
                                          providing administrative services;                       quality assurance, and other services.
                                                                                                   Such physician oversight and                           services reimbursable by Federal health
                                            • A hospice nurse providing nursing
                                          services for non-hospice patients; and                   involvement at the nursing facility                    care programs. Therefore, they should
                                            • A registered nurse provided by a                     contributes to the quality of care                     familiarize themselves with the
                                          hospital.                                                furnished to the residents. These                      discount safe harbor at 42 CFR
                                            Nursing facilities should be mindful                   physicians, however, may also be in a                  1001.952(h). In particular, nursing
                                          that, depending on the circumstances,                    position to generate Federal health care               facilities should insure that all
                                          these and similar arrangements may                       program business for the nursing                       discounts—including any rebates—are
                                          subject the parties to liability under the               facility. For instance, these physicians               properly disclosed and accurately
                                          anti-kickback statute, if the requisite                  may refer patients for admission. They                 reflected on their cost reports (and in
                                          intent is present.                                       may order items and services that result               any claims as appropriate) filed with a
                                                                                                   in an increased RUG or that are billable               Federal program. In addition, some
                                          2. Services Contracts                                                                                           nursing facilities purchase products
                                                                                                   separately by the nursing facility.
                                          (a) Non-Physician Services                               Physician arrangements need to be                      through group purchasing organizations
                                             Often kickbacks are disguised as                      closely monitored to ensure that they                  (GPOs) to which they belong. Any
                                          otherwise legitimate payments or are                     are not vehicles to pay physicians for                 discounts received from vendors who
                                          hidden in business arrangements that                     referrals. As with other services                      sell their products under a GPO contract
                                          appear, on their face, to be appropriate.                contracts, nursing facilities should                   should be properly disclosed and
                                          In addition to the provision of free                     periodically review these arrangements                 accurately reported on the nursing
                                          goods and services, the provision or                     to ensure that: (i) There is a legitimate              facility’s cost reports. Although there is
                                          receipt of goods or services at non-fair-                need for the services; (ii) the services are           a safe harbor for administrative fees
                                          market value rates presents a heightened                 provided; (iii) the compensation is at                 paid by a vendor to a GPO,102 that safe
                                          risk of fraud and abuse. Nursing                         fair-market value in an arm’s-length                   harbor does not protect discounts
                                          facilities often arrange for certain                     transaction; and (iv) the arrangement is               provided by a vendor to purchasers of
                                          services and supplies to be provided to                  not related in any manner to the volume                products.
                                          residents by outside suppliers and                       or value of Federal health care program
                                                                                                   business. In addition, prudent nursing                 (b) Swapping
                                          providers, such as pharmacies, clinical
                                          laboratories, DME suppliers, ambulance                   facilities will maintain                                  Nursing facilities often obtain
                                          providers, parenteral and enteral                        contemporaneous documentation of the                   discounts from suppliers and providers
                                          nutrition (PEN) suppliers, diagnostic                    arrangement, including, for example,                   on items and services that the nursing
                                          testing facilities, rehabilitation                       the compensation terms, time logs or                   facilities purchase for their own
                                          companies, and physical, occupational,                   other accounts of services rendered, and               account. In negotiating arrangements
                                          and speech therapists. These                             the basis for determining compensation.                with suppliers and providers, a nursing
                                          relationships need to be closely                         Prudent facilities will also take steps to             facility should be careful that there is no
                                          scrutinized under the anti-kickback                      ensure that they have not engaged more                 link or connection, explicit or implicit,
                                          statute to ensure that they are not                      medical directors or other physicians                  between discounts offered or solicited
                                          vehicles to disguise kickbacks from the                  than necessary for legitimate business                 for business that the nursing facility
                                          suppliers and providers to the nursing                   purposes. They will also ensure that                   pays for and the nursing facility’s
                                          facility to influence the nursing facility               compensation is commensurate with the                  referral of business billable by the
                                          to refer Federal health care program                     skill level and experience reasonably                  supplier or provider directly to
                                          business to the suppliers and providers.                 necessary to perform the contracted
                                             To minimize their risk, nursing                                                                              Medicare or another Federal health care
                                                                                                   services. To eliminate their risk, nursing             program. For example, nursing facilities
                                          facilities should periodically review                    facilities should structure services
                                          contractor and staff arrangements to                                                                            should not engage in ‘‘swapping’’
                                                                                                   arrangements to comply with the                        arrangements by accepting a low price
                                          ensure that: (i) There is a legitimate                   personal services and management
                                          need for the services or supplies; (ii) the                                                                     from a supplier or provider on an item
                                                                                                   contracts safe harbor 101 whenever
                                          services or supplies are actually                                                                               or service covered by the nursing
                                                                                                   possible.
                                          provided and adequately documented;                                                                             facility’s Part A per diem payment in
                                          (iii) the compensation is at fair-market                 3. Discounts                                           exchange for the nursing facility
                                          value in an arm’s-length transaction;                    (a) Price Reductions                                   referring to the supplier or provider
                                          and (iv) the arrangement is not related                                                                         other Federal health care program
                                          in any manner to the volume or value                       Public policy favors open and                        business, such as Part B business
                                          of Federal health care program business.                 legitimate price competition in health                 excluded from consolidated billing, that
                                          Nursing facilities are well-advised to                   care. Thus, the anti-kickback statute                  the supplier or provider can bill directly
                                          have all of the preceding facts                          contains an exception for discounts                    to a Federal health care program. Such
                                          documented contemporaneously and                         offered to customers that submit claims                ‘‘swapping’’ arrangements implicate the
                                          prior to payment to the provider of the                  to the Federal health care programs, if                anti-kickback statute and are not
                                          supplies or services. To eliminate their                 the discounts are properly disclosed and               protected by the discount safe harbor.
                                          risk, nursing facilities should structure                accurately reported. However, to qualify               Nursing facility arrangements with
                                          services arrangements to comply with                     for the exception, the discount must be                clinical laboratories, DME suppliers,
jlentini on PROD1PC65 with NOTICES




                                          the personal services and management                     in the form of a reduction in the price                and ambulance providers are some
                                          contracts safe harbor 100 whenever                       of the good or service based on an arm’s-              examples of arrangements that may be
                                          possible.                                                length transaction. In other words, the                prone to ‘‘swapping’’ problems.

                                            100 42   CFR 1001.952(b)                                 101 42   CFR 1001.952(d).                              102 42   CFR 1001.952(d).



                                     VerDate Aug<31>2005    17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00084   Fmt 4703    Sfmt 4703   E:\FR\FM\16APN1.SGM     16APN1
                                          20692                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                             As we have previously explained in                   providing hospice services to the                          • A hospice providing staff at its
                                          other guidance,103 the size of a discount               hospice’s patients.105 Nursing facilities                expense to the nursing facility.
                                          is not determinative of an anti-kickback                should be mindful that requesting or                       For additional guidance on
                                          statute violation. Rather, the appropriate              accepting remuneration from a hospice                    arrangements with hospices, nursing
                                          question to ask is whether the discount                 may subject the nursing facility and the                 facilities should review OIG’s Special
                                          is tied or linked, directly or indirectly,              hospice to liability under the anti-
                                                                                                                                                           Fraud Alert on Nursing Home
                                          to referrals of other Federal health care               kickback statute if the remuneration
                                          program business. When evaluating                                                                                Arrangements with Hospices.107
                                                                                                  might influence the nursing facility’s
                                          whether an improper connection exists                   decision to do business with the                         Whenever possible, nursing facilities
                                          between a discount offered to a nursing                 hospice.106                                              should structure their relationships with
                                          facility and referrals of Federal health                   Some of the practices that are suspect                hospices to fit in a safe harbor, such as
                                          care program business billed by a                       under the anti-kickback statute include:                 the personal services and management
                                          supplier or provider, suspect                              • A hospice offering free goods or                    contracts safe harbor.108
                                          arrangements include below-cost                         goods at below fair-market value to                      5. Reserved Bed Arrangements
                                          arrangements or arrangements at prices                  induce a nursing facility to refer
                                          lower than the prices offered by the                    patients to the hospice;                                   Sometimes hospitals arrange with
                                          supplier or provider to other customers                    • A hospice paying room and board                     nursing facilities to accept discharged
                                          with similar volumes of business, but                   payments to the nursing facility in                      Medicare patients. Under some reserved
                                          without Federal health care program                     amounts in excess of what the nursing                    bed arrangements, hospitals provide
                                          referrals. Other suspect practices                      facility would have received directly                    remuneration to nursing facilities to
                                          include, but are not limited to,                        from Medicaid had the patient not been                   keep certain beds available and open for
                                          discounts that are coupled with                         enrolled in hospice. Any additional                      the hospital’s own patients.109 Payments
                                          exclusive provider agreements and                       payment must represent the fair-market                   from hospitals to nursing facilities to
                                          discounts or other pricing schemes                      value of additional services actually
                                          made in conjunction with explicit or                                                                             reserve a bed may pose risk under the
                                                                                                  provided to that patient that are not                    anti-kickback statute if one purpose of
                                          implicit agreements to refer other                      included in the Medicaid daily rate;
                                          facility business. In sum, if any direct or                                                                      the arrangement is to induce referrals to
                                                                                                     • A hospice paying amounts to the                     the hospital.
                                          indirect link exists between a price                    nursing facility for additional services
                                          offered by a supplier or provider to a                  that Medicaid considers to be included                      These arrangements should be
                                          nursing facility for items or services that             in its room and board payment to the                     reviewed to ensure that the payment is
                                          the nursing facility pays for out-of-                   hospice;                                                 not a disguised payment for referrals
                                          pocket and referrals of Federal business                   • A hospice paying above fair-market                  from the nursing facility to the hospital.
                                          for which the supplier or provider can                  value for additional services that                       Examples of some potentially
                                          bill a Federal health care program, the                 Medicaid does not consider to be                         problematic arrangements include: (1)
                                          anti-kickback statute is implicated.                    included in its room and board payment                   Payments that are more than the actual
                                          4. Hospices                                             to the nursing facility;                                 cost to the nursing facility of holding an
                                             Hospice services for terminally ill                     • A hospice referring its patients to a               empty bed; (2) payments for ‘‘lost
                                          patients are typically provided in the                  nursing facility to induce the nursing                   opportunity’’ or similar costs that are
                                          patients’ homes. In some cases,                         facility to refer its patients to the                    calculated based on a nursing facility’s
                                          however, a nursing facility is the                      hospice;                                                 revenues for an occupied bed; and (3)
                                          patient’s home. In such cases, nursing                     • A hospice providing free (or below                  payments for more beds than the
                                          facilities often arrange for the provision              fair-market value) care to nursing                       hospital legitimately needs. Payments
                                          of hospice services in the nursing                      facility patients, for whom the nursing                  should be for the limited purpose of
                                          facility if the resident meets the hospice              facility is receiving Medicare payment                   securing needed beds, not future
                                          eligibility criteria and elects the hospice             under the SNF benefit, with the                          referrals.
                                          benefit. These arrangements pose                        expectation that after the patient
                                          several fraud and abuse risks. For                      exhausts the SNF benefit, the patient                       107 OIG Special Fraud Alert on Fraud and Abuse

                                          example, to induce referrals, a hospice                 will receive hospice services from that                  in Nursing Home Arrangements with Hospices,
                                          may offer a nursing facility                            hospice; and                                             March 1998, available on our Web site at http://
                                          remuneration in the form of free nursing                                                                         oig.hhs.gov/fraud/docs/alertsandbulletins/
                                                                                                  at http://www.cms.hhs.gov/Manuals/. For Medicaid         hospice.pdf.
                                          services for non-hospice patients;                                                                                  108 42 CFR 1001.952(d).
                                                                                                  patients, the State will pay the hospice at least 95
                                          additional room and board                               percent of the State’s Medicaid daily nursing               109 The Provider Reimbursement Manual provides
                                          payments; 104 or inflated payments for                  facility rate, and the hospice is then responsible for   as follows:
                                                                                                  paying the nursing facility for the beneficiary’s           Providers are permitted to enter into reserved bed
                                             103 See, e.g., OIG’s September 22, 1999 letter       room and board. Section 1902(a)(13)(B) of the Act        agreements, as long as the terms of that agreement
                                          regarding ‘‘Discount Arrangements Between               (42 U.S.C. 1396a(a)(13)(B)).                             do not violate the provisions of the statute and
                                          Clinical Laboratories and SNFs’’ (referencing OIG          105 Under the regulations at 42 CFR 418.80,
                                                                                                                                                           regulations which govern provider agreements
                                          Advisory Opinion No. 99–2 issued February 26,           hospices must generally furnish substantially all of     which (1) Prohibit a provider from charging the
                                          1999), available on our Web site at http://             the core hospice service themselves. Hospices are
                                                                                                                                                           beneficiary or other party for covered services; (2)
                                          oig.hhs.gov/fraud/docs/safeharborregulations/           permitted to furnish non-core services under
                                                                                                                                                           prohibit a provider from discriminating against
                                          rs.htm; 56 FR 35952 at the preamble (July 29, 1991),    arrangements with other providers or suppliers,
                                                                                                                                                           Medicare beneficiaries, as a class, in admission
                                          ‘‘Medicare and State Health Care Programs: Fraud        including nursing facilities. 42 CFR 418.56; CMS,
                                          and Abuse; OIG Anti-Kickback Provisions,’’              State Operations Manual, chapter 2, section 2082C,       policies; or (3) prohibit certain types of payments
                                          available on our Web site at http://oig.hhs.gov/        available on CMS’s Web site at http://                   in connection with referring patients for covered
                                          fraud/docs/safeharborregulations/072991.htm.            www.cms.hhs.gov/Manuals/IOM/list.asp.                    services. A provider may jeopardize its provider
jlentini on PROD1PC65 with NOTICES




                                             104 The Medicare reimbursement rate for routine         106 Under certain circumstances, a nursing facility   agreement or incur other penalties if it enters into
                                          hospice services provided in a nursing facility does    that knowingly refers to a hospice patients who do       a reserved bed agreement that violates these
                                          not include room and board expenses, so payment         not qualify for the hospice benefit may be liable for    requirements.
                                          for room and board may be the responsibility of the     the submission of false claims. The Medicare                CMS, Provider Reimbursement Manual, section
                                          patient. CMS, Medicare Benefit Policy Manual,           hospice eligibility criteria are found at 42 CFR         2105.3(D), available on CMS’s Web site at http://
                                          chapter 9, section 20.3, available on CMS’s Web site    418.20.                                                  www.cms.hhs.gov/Manuals/PBM.



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00085   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM     16APN1
                                                                       Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                  20693

                                          D. Other Risk Areas                                     financial relationship, there is no                   consistent, and objective determinations
                                                                                                  physician self-referral issue. If there is a          of fair-market value and for ensuring
                                          1. Physician Self-Referrals
                                                                                                  financial relationship, the next inquiry              that needed items and services are
                                             Nursing facilities should familiarize                is:                                                   furnished or rendered. Nursing facilities
                                          themselves with the physician self-                        • Does the financial relationship fit in           should also implement systems to track
                                          referral law (section 1877 of the Act),110              an exception? If not, the statute is                  non-monetary compensation provided
                                          commonly known as the ‘‘Stark’’ law.                    violated.                                             annually to referring physicians (such as
                                          The physician self-referral law prohibits                  Detailed regulations regarding the                 free parking or gifts) and ensure that
                                          entities that furnish ‘‘designated health               italicized terms are set forth in                     such compensation does not exceed
                                          services’’ (DHS) from submitting—and                    regulations at 42 CFR 411.351 through                 limits set forth in the physician self-
                                          Medicare from paying—claims for DHS                     411.361 (substantial additional                       referral regulations.
                                          if the referral for the DHS comes from                  explanatory material appears in
                                          a physician with whom the entity has a                  preambles to the final regulations: 66 FR                Further information about the
                                          prohibited financial relationship. This is              856 (January 4, 2001), 69 FR 16054                    physician self-referral law and
                                          true even if the prohibited financial                   (March 26, 2004), and 72 FR 51012                     applicable regulations can be found on
                                          relationship is the result of inadvertence              (September 5, 2007)).113                              CMS’s Web site at http://
                                          or error. Violations can result in                         Nursing facilities should pay                      www.cms.hhs.gov/Physician
                                          refunding of the prohibited payment                     particular attention to their                         SelfReferral/. Information regarding
                                          and, in cases of knowing violations,                    relationships with attending physicians               CMS’s physician self-referral advisory
                                          CMPs, and exclusion from the Federal                    who treat residents and with physicians               opinion process can be found at http://
                                          health care programs. Knowing                           who are nursing facility owners,                      www.cms.hhs.gov/Physician
                                          violations of the physician self-referral               investors, medical directors, or                      SelfReferral/07_
                                          law can also form the basis for liability               consultants. The statutory and                        advisory_opinions.asp#TopOfPage.
                                          under the False Claims Act.                             regulatory exceptions are key to
                                                                                                                                                        2. Anti-Supplementation
                                             Nursing facility services, including                 compliance with the physician self-
                                          SNF services covered by the Part A PPS                  referral law. Exceptions exist for many                 As a condition of its Medicare
                                          payment, are not DHS for purposes of                    common types of arrangements.114 To fit               provider agreement and under
                                          the physician self-referral law. However,               in an exception, an arrangement must                  applicable Medicaid regulations and a
                                          laboratory services, physical therapy                   squarely meet all of the conditions set               criminal provision precluding
                                          services, and occupational services are                 forth in the exception. Importantly, it is            supplementation of Medicaid payment
                                          among the DHS covered by the                            the actual relationship between the                   rates, a nursing facility must accept the
                                          statute.111 Nursing facilities that bill                parties, and not merely the paperwork,                applicable Medicare or Medicaid
                                          Part B for laboratory services, physical                that must fit in an exception. Unlike the             payment (including any beneficiary
                                          therapy services, occupational therapy                  anti-kickback safe harbors, which are                 coinsurance or copayments authorized
                                          services, or other DHS pursuant to the                  voluntary, fitting in an exception is                 under those programs), respectively, for
                                          consolidated billing rules are                          mandatory under the physician self-                   covered items and services as the
                                          considered entities that furnish DHS.112                referral law. Compliance with a                       complete payment.115 For covered items
                                          Accordingly, nursing facilities should                  physician self-referral law exception
                                                                                                                                                        and services, a nursing facility may not
                                          review all financial relationships with                 does not immunize an arrangement
                                                                                                                                                        charge a Medicare or Medicaid
                                          physicians who refer or order such                      under the anti-kickback statute.
                                                                                                                                                        beneficiary, or another person in lieu of
                                          services to ensure compliance with the                  Therefore, arrangements that implicate
                                                                                                                                                        the beneficiary, any amount in addition
                                          physician self-referral law.                            the physician self-referral law should
                                                                                                                                                        to what is otherwise required to be paid
                                             When analyzing potential physician                   also be analyzed under the anti-
                                                                                                  kickback statute.                                     under Medicare or Medicaid (i.e., a cost-
                                          self-referral situations, the following
                                                                                                     In addition to reviewing particular                sharing amount). For example, an SNF
                                          three part inquiry is useful:
                                                                                                                                                        may not condition acceptance of a
                                             • Is there a referral (including, but                arrangements, nursing facilities can
                                                                                                  implement several systemic measures to                beneficiary from a hospital upon
                                          not limited to, ordering a service for a
                                                                                                  guard against violations. First, many of              receiving payment from the hospital or
                                          resident) from a physician for a
                                          designated health service? If not, there                the potentially applicable exceptions                 the beneficiary’s family in an amount
                                          is no physician self-referral issue. If yes,            require written, signed agreements                    greater than what the SNF would
                                          then the next inquiry is:                               between the parties. Nursing facilities               receive under the PPS. For Medicare
                                             • Does the physician (or an                          should enter into appropriate written                 and Medicaid beneficiaries, a nursing
                                          immediate family member) have a direct                  agreements with physicians. In                        facility may not accept supplemental
                                          or indirect financial relationship with                 addition, nursing facilities should                   payments, including, but not limited to,
                                          the nursing facility? A financial                       review their contracting processes to                 cash and free or discounted items and
                                          relationship can be created by                          ensure that they obtain and maintain                  services, from a hospital or other source
                                          ownership, investment, or                               signed agreements covering all time                   merely because the nursing facility
                                          compensation; it need not relate to the                 periods for which an arrangement is in                considers the Medicare or Medicaid
                                          furnishing of DHS. If there is no                       place. Second, many exceptions require                payment to be inadequate (although a
                                                                                                  fair-market value compensation for                    nursing facility may accept donations
                                            110 42 U.S.C. 1395nn.                                 items and services actually needed and                unrelated to the care of specific
                                            111 The  complete list of DHS is found at section     rendered. Thus, nursing facilities                    patients). The supplemental payment
                                          1877(h)(6) of the Act (42 U.S.C. 1395nn(h)(6)) and      should have appropriate processes for                 would be a prohibited charge imposed
                                          42 CFR 411.351.
                                                                                                  making and documenting reasonable,                    by the nursing facility on another party
jlentini on PROD1PC65 with NOTICES




                                            112 See 66 FR 856, 923 (January 4, 2001),

                                          ‘‘Medicare and Medicaid Programs; Physicians’
                                                                                                    113 Available on CMS’s Web site at http://
                                          Referrals to Health Care Entities With Which They                                                               115 Section 1866(a) of the Act (42 U.S.C.

                                          Have Financial Relationships,’’ available on CMS’s      www.cms.hhs.gov/PhysicianSelfReferral.                1395cc(a)); 42 CFR 489.20; section 1128B(d) of the
                                          Web site at http://www.cms.hhs.gov/PhysicianSelf          114 Section 1877(b)–(e) of the Act (42 U.S.C.       Act (42 U.S.C. 1320a–7b(d)); 42 CFR 447.15; 42 CFR
                                          Referral/Downloads/66FR856.pdf.                         1395nn(b)–(e)). See also 42 CFR 411.351–411.357.      483.12(d)(3).



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00086   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
                                          20694                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                          for services that are already covered by                Plan is ensured by section 1860D–1 of                   on its own unique circumstances.
                                          Medicare or Medicaid.116                                the Act.122 Nursing facilities may not                  Covered entities may consider their
                                                                                                  limit this choice in the Part D program.                organization and capabilities, as well as
                                          3. Medicare Part D
                                                                                                                                                          costs, in designing their security plans
                                             Medicare Part D extends voluntary                    E. HIPAA Privacy and Security Rules
                                                                                                                                                          and procedures. Questions about the
                                          prescription drug coverage to all                          As of April 14, 2003, all nursing                    HIPAA Security Rule should be
                                          Medicare beneficiaries, 117 including                   facilities that conduct electronic                      submitted to CMS.127
                                          individuals who reside in nursing                       transactions governed by HIPAA are
                                          facilities. Like all Medicare                           required to comply with the Privacy                     IV. Other Compliance Considerations
                                          beneficiaries, nursing facility residents               Rule adopted under HIPAA.123                            A. An Ethical Culture
                                          who decide to enroll in Part D have the                 Generally, the HIPAA Privacy Rule
                                                                                                                                                             Every effective compliance program
                                          right to choose their Part D plans.118                  addresses the use and disclosure of
                                                                                                                                                          begins with a formal commitment to
                                          Part D plans offer a variety of drug                    individuals’ personally identifiable
                                                                                                                                                          compliance by the nursing facility’s
                                          formularies and have arrangements with                  health information (called ‘‘protected
                                                                                                                                                          governing body and senior management.
                                          a variety of pharmacies to administer                   health information’’ or PHI) by covered
                                                                                                                                                          Evidence of that commitment includes
                                          drugs to the plan’s enrollees. Nursing                  nursing facilities and other covered
                                                                                                                                                          active involvement of the organizational
                                          facilities also enter into arrangements                 entities. The Privacy Rule also covers
                                                                                                                                                          leadership; allocation of adequate
                                          with pharmacies to administer drugs.                    individuals’ privacy rights to
                                                                                                                                                          resources; a reasonable timetable for
                                          Typically, these are exclusive or semi-                 understand and control how their health
                                                                                                                                                          implementation of the compliance
                                          exclusive arrangements designed to ease                 information is used. The Privacy Rule
                                                                                                                                                          measures; and the identification of a
                                          administrative burdens and coordinate                   also requires nursing facilities to
                                                                                                                                                          compliance officer and compliance
                                          accurate administration of drugs to                     disclose PHI to the individual who is
                                                                                                                                                          committee vested with sufficient
                                          residents. When a resident is selecting                 the subject of the PHI or to the Secretary
                                                                                                                                                          autonomy, authority, and accountability
                                          a particular Part D plan, it may be that                of the Department of Health and Human
                                                                                                                                                          to implement and enforce appropriate
                                          the Part D plan that best satisfies a                   Services under certain circumstances.
                                                                                                                                                          compliance measures. A nursing
                                          beneficiary’s needs does not have an                    The Privacy Rule and helpful
                                                                                                                                                          facility’s leadership should foster an
                                          arrangement with the nursing facility’s                 information about how it applies can be
                                                                                                                                                          organizational culture that values, and
                                          pharmacy. CMS has stated that it                        found on the Web site of the
                                                                                                                                                          even rewards, the prevention, detection,
                                          expects nursing facilities ‘‘to work with               Department’s Office for Civil Rights
                                                                                                                                                          and resolution of problems. Moreover, a
                                          their current pharmacies to assure that                 (OCR).124 Questions about the Privacy
                                                                                                                                                          nursing facility’s leadership and
                                          they recognize the Part D plans chosen                  Rule should be submitted to OCR.125
                                                                                                     The Privacy Rule gives covered                       management should ensure that policies
                                          by that facility’s Medicare beneficiaries,
                                                                                                  nursing facilities and other covered                    and procedures, such as compensation
                                          or, in the alternative, to add additional
                                                                                                  entities some flexibility to create their               structures, do not create undue pressure
                                          pharmacies to achieve that
                                                                                                  own privacy procedures. Each nursing                    to pursue profit over compliance. The
                                          objective.’’ 119 CMS also suggests that a
                                                                                                  facility should make sure that it is                    effectiveness of these policies and
                                          nursing facility ‘‘could contract
                                                                                                  compliant with all applicable provisions                procedures should be periodically re-
                                          exclusively with another pharmacy that
                                                                                                  of the Privacy Rule, including standards                evaluated. In short, the nursing facility
                                          contracts more broadly with Part D
                                                                                                  for the use and disclosure of PHI with                  should endeavor to develop a culture
                                          plans.’’ 120
                                             Nursing facilities must be particularly              and without patient authorization and                   that values compliance from the top
                                          careful not to act in ways that would                   the provisions pertaining to permitted                  down and fosters compliance from the
                                          frustrate a beneficiary’s freedom of                    and required disclosures.                               bottom up. Such an organizational
                                          choice in choosing a Part D plan. CMS                      The HIPAA Security Rule specifies a                  culture is the foundation of an effective
                                          has stated that ‘‘[u]nder no                            series of administrative, technical, and                compliance program.
                                                                                                  physical security safeguards for covered                   Although a clear statement of detailed
                                          circumstances should a nursing home
                                                                                                  entities to ensure the confidentiality of               and substantive policies and
                                          require, request, coach or steer any
                                                                                                  electronic PHI.126 Nursing facilities that              procedures—and the periodic
                                          resident to select or change a plan for                                                                         evaluation of their effectiveness—are at
                                          any reason,’’ nor should it ‘‘knowingly                 are covered entities were required to be
                                                                                                                                                          the core of a compliance program, OIG
                                          and/or willingly allow the pharmacy                     compliant with the Security Rule by
                                                                                                                                                          recommends that nursing facilities also
                                          servicing the nursing home’’ to do the                  April 20, 2005. The Security Rule
                                                                                                                                                          develop a general organizational
                                          same.121 Nursing facilities and their                   requirements are flexible and scalable,
                                                                                                                                                          statement of ethical and compliance
                                          employees and contractors should not                    which allows each covered entity to
                                                                                                                                                          principles to guide their operations. One
                                          accept any payments from any plan or                    tailor its approach to compliance based
                                                                                                                                                          common expression of this statement of
                                          pharmacy to influence a beneficiary to                                                                          principles is a code of conduct. The
                                                                                                    122 42  U.S.C. 1395w–101.
                                          select a particular plan. Beneficiary                                                                           code should function as the nursing
                                                                                                    123 45  CFR parts 160 and 164, subparts A and E;
                                          freedom of choice in choosing a Part D                                                                          facility’s constitution. It should be a
                                                                                                  available at http://www.hhs.gov/ocr/hipaa/
                                            116 See id.; see also CMS, Skilled Nursing Facility
                                                                                                  finalreg.html. In addition to the HIPAA Privacy and     document that details the fundamental
                                                                                                  Security Rules, facilities should also take steps to    principles, values, and framework for
                                          Manual, chapter 3, sections 317 and 318, available      adhere to the privacy and confidentiality
                                          on CMS’s Web site at http://www.cms.hhs.gov/            requirements for residents’ personal and clinical
                                                                                                                                                          action within the organization. The code
                                          Manuals/PBM/list.asp.                                   records, 42 CFR 483.10(e), and any applicable State     of conduct for a nursing facility should
                                            117 Section 1860D–1 of the Act (42 U.S.C.
                                                                                                  privacy laws.                                           articulate a commitment to compliance
                                          1395w 101).                                                124 OCR, ‘‘Office of Civil Rights—HIPAA,’’
                                                                                                                                                          by management, employees, and
                                            118 Id.
                                                                                                  available at http://www.hhs.gov/ocr/hipaa/.             contractors. It should summarize the
                                            119 See CMS Survey and Certification Group’s             125 Nursing facilities can contact OCR by
                                                                                                                                                          broad ethical and legal principles under
jlentini on PROD1PC65 with NOTICES




                                          May 11, 2006 letter to State Survey Agency              following the instructions on its Web site, available
                                          Directors, available on CMS’s Web site at http://       at http://www.hhs.gov/ocr/contact.html, or by           which the nursing facility must operate.
                                          www.cms.hhs.gov/SurveyCertificationGenInfo/             calling the HIPAA toll-free number, (866) 627–7748.
                                          downloads/SCLetter06-16.pdf.                               126 45 CFR parts 160 and 164, subparts A and C,        127 Nursing facilities can contact CMS by
                                            120 Id.
                                                                                                  available on CMS’s Web site at http://www.cms.gov/      following the instructions on its Web site, http://
                                            121 Id.                                               SecurityStandard/02_Regulations.asp.                    www.cms.hhs.gov/HIPAAGenInfo/.



                                     VerDate Aug<31>2005   19:08 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00087   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM    16APN1
                                                                       Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices                                                      20695

                                          The code of conduct should also                         OIG’s 2000 Nursing Facility CPG, which                  oversight and management
                                          include a requirement that professionals                explains in detail the fundamental                      responsibilities.
                                          follow the ethical standards dictated by                elements of a compliance program.128
                                                                                                                                                          V. Self-Reporting
                                          their respective professional                           Nursing facilities may also wish to
                                          organizations.                                          consult quality of care corporate                         If the compliance officer, compliance
                                            The code of conduct should be brief,                  integrity agreements (CIAs) entered into                committee, or a member of senior
                                          easily readable, and cover general                      between OIG and parties settling                        management discovers credible
                                          principles applicable to all members of                 specific matters.129                                    evidence of misconduct from any source
                                          the organization. OIG strongly                                                                                  and, after a reasonable inquiry, believes
                                          encourages broad participation in                       C. Communication to Decisionmakers                      that the misconduct may violate
                                          creating and implementing an                               Good compliance practices may                        criminal, civil, or administrative law,
                                          organization’s code of conduct and                      include the development of a                            the nursing facility should promptly
                                          compliance program. This may include,                   mechanism, such as a ‘‘dashboard,’’ 130                 report the existence of the misconduct
                                          as appropriate, the participation and                   designed to communicate effectively                     to the appropriate Federal and State
                                          involvement of the nursing facility’s                   appropriate compliance and                              authorities.132 The reporting should
                                          board of directors, officers (including                 performance-related information to a                    occur within a reasonable period, but
                                          the chief executive officer), members of                nursing facility’s board of directors and               not longer than 60 days,133 after
                                          senior management, quality assurance                    senior officers. The dashboard or other                 determining that there is credible
                                          staff, compliance staff, representatives                communication tool should include                       evidence of a violation.134 Prompt
                                          from the medical and clinical staffs, and               quality of care information. Further                    voluntary reporting will demonstrate
                                          other nursing facility personnel in the                 information and resources about quality                 the nursing facility’s good faith and
                                          development of all aspects of the                       of care dashboards are available on our                 willingness to work with governmental
                                          compliance program, especially the                      Web site.131                                            authorities to correct and remedy the
                                          code of conduct. Management and                            When communication tools such as                     problem. In addition, prompt reporting
                                          employee involvement in this process                    dashboards are properly implemented                     of misconduct will be considered a
                                          communicates a strong and explicit                      and include quality of care information,                mitigating factor by OIG in determining
                                          commitment by management to foster                      the directors and senior officers can,                  administrative sanctions (e.g., penalties,
                                          compliance with applicable Federal                      among other things: (1) Demonstrate a                   assessments, and exclusion) if the
                                          health care program requirements. It                    commitment to quality of care and foster                reporting nursing facility becomes the
                                          also communicates the need for all                      an organization-wide culture that values                subject of an OIG investigation.135
                                          directors, officers, managers, employees,               quality of care; (2) improve the facility’s
                                          contractors, and medical and clinical                   quality of care through increased
                                                                                                                                                             132 Appropriate Federal and State authorities

                                          staff members to comply with the                                                                                include OIG, CMS, the Criminal and Civil Divisions
                                                                                                  awareness of and involvement in the                     of the Department of Justice, the U.S. Attorney in
                                          organization’s code of conduct and                      oversight of quality of care issues; and                relevant districts, the Food and Drug
                                          policies and procedures.                                (3) track and trend quality of care data                Administration, the Department’s Office for Civil
                                                                                                  (e.g., State agency survey results,                     Rights, the Federal Trade Commission, the Drug
                                          B. Regular Review of Compliance                                                                                 Enforcement Administration, the Federal Bureau of
                                          Program Effectiveness                                   outcome care and delivery data, and                     Investigation, and the other investigative arms for
                                                                                                  staff retention and turnover data) to                   the agencies administering the affected Federal or
                                             Effective compliance requires                        identify potential quality of care                      State health care programs, such as the State
                                          effective systems and structures. The                   problems, identify areas in which the                   Medicaid Fraud Control Unit, the Defense Criminal
                                          following elements are common to                        organization is providing high quality of
                                                                                                                                                          Investigative Service, the Department of Veterans
                                          building effective compliance programs:                                                                         Affairs, the Health Resources and Services
                                                                                                  care, and measure progress on quality of                Administration, and the Office of Personnel
                                             • Designation of a compliance officer
                                                                                                  care initiatives. Each dashboard should                 Management (which administers the Federal
                                          and compliance committee;                                                                                       Employee Health Benefits Program).
                                             • Development of compliance                          be tailored to meet the specific needs                     133 To qualify for the ’’not less than double

                                          policies and procedures, including                      and sophistication of the implementing                  damages’’ provision of the False Claims Act, the
                                          standards of conduct;                                   nursing facility, its board members, and                provider must provide the report to the government
                                             • Developing open lines of                           senior officers. OIG views the use of                   within 30 days after the date when the provider first
                                                                                                  dashboards, and similar tools, as a                     obtained the information. 31 U.S.C. 3729(a).
                                          communication;                                                                                                     134 Some violations may be so serious that they
                                             • Appropriate training and teaching;                 helpful compliance practice that can
                                                                                                                                                          warrant immediate notification to governmental
                                             • Internal monitoring and auditing;                  lead to improved quality of care and                    authorities prior to, or simultaneous with,
                                             • Response to detected deficiencies;                 assist the board members and senior                     commencing an internal investigation. By way of
                                          and                                                     officers in fulfilling, respectively, their             example, OIG believes a provider should
                                                                                                                                                          immediately report misconduct that: (i) is a clear
                                             • Enforcement of disciplinary                                                                                violation of administrative, civil, or criminal laws;
                                          standards.                                                 128 2000 Nursing Facility CPG, supra note 2, at
                                                                                                                                                          (ii) poses an imminent danger to a patient’s safety;
                                             Nursing facilities should regularly                  14289.                                                  (iii) has a significant adverse effect on the quality
                                                                                                     129 OIG, ‘‘Corporate Integrity Agreements,’’
                                          review the implementation and                                                                                   of care provided to Federal health care program
                                                                                                  available on our Web site at http://oig.hhs.gov/        beneficiaries; or (iv) indicates evidence of a
                                          execution of their compliance program                   fraud/cias.html.                                        systemic failure to comply with applicable laws or
                                          systems and structures. This review                        130 Much like the dashboard of a car, a              an existing corporate integrity agreement, regardless
                                          should be conducted annually. It should                 ‘‘dashboard’’ is an instrument that provides the        of the financial impact on Federal health care
                                          include an assessment of each of the                    recipient with a user-friendly (i.e., presented in an   programs.
                                          basic elements individually, as well as                 appropriate context) snapshot of the key pieces of         135 OIG has published criteria setting forth those
                                                                                                  information needed by the recipient to oversee and      factors that OIG takes into consideration in
                                          the overall success of the program. This                manage effectively the operation of an organization     determining whether it is appropriate to exclude an
                                          review should help nursing facilities                   and forestall potential problems, while avoiding        individual or entity from program participation
jlentini on PROD1PC65 with NOTICES




                                          identify any weaknesses in their                        information overload.                                   pursuant to section 1128(b)(7) of the Act (42 U.S.C.
                                                                                                     131 See, e.g., OIG, ‘‘Driving for Quality in Long-   1320a–7(b)(7)) for violations of various fraud and
                                          compliance programs and implement
                                                                                                  Term Care: A Board of Director’s Dashboard—             abuse laws. See 62 FR 67392 (December 24, 1997),
                                          appropriate changes. Nursing facilities                 Government-Industry Roundtable,’’ available on our      ‘‘Criteria for Implementing Permissive Exclusion
                                          seeking guidance on setting up effective                Web site at http://oig.hhs.gov/fraud/docs/              Authority Under Section 1128(b)(7) of the Social
                                          compliance operations should review                     complianceguidance/Roundtable013007.pdf                 Security Act.’’



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00088   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM    16APN1
                                          20696                        Federal Register / Vol. 73, No. 74 / Wednesday, April 16, 2008 / Notices

                                             To encourage providers to make                       a.m. to June 5, 2008, 5 p.m., Latham                    Contact Person: Reed A. Graves, PhD,
                                          voluntary disclosures, OIG published                    Hotel, 3000 M Street, NW., Washington,                Scientific Review Officer, Center for
                                          the Provider Self-Disclosure Protocol.136               DC, 20007 which was published in the                  Scientific Review, National Institutes of
                                                                                                                                                        Health, 6701 Rockledge Drive, Room 6166,
                                          When reporting to the Government, a                     Federal Register on April 4, 2008, 73 FR
                                                                                                                                                        MSC 7892, Bethesda, MD 20892, (301) 402–
                                          nursing facility should provide all                     18539–18542.                                          6297, gravesr@csr.nih.gov.
                                          relevant information regarding the                         The meeting will be held one day
                                                                                                                                                          Name of Committee: Immunology
                                          alleged violation of applicable Federal                 only June 4, 2008. The meeting time and               Integrated Review Group; Cellular and
                                          or State law(s) and the potential                       location remain the same. The meeting                 Molecular Immunology—B Study Section.
                                          financial or other impact of the alleged                is closed to the public.                                Date: May 29–30, 2008.
                                          violation. The compliance officer, under                  Dated: April 9, 2008.                                 Time: 8:30 a.m. to 2 p.m.
                                          advice of counsel and with guidance                     Jennifer Spaeth,
                                                                                                                                                          Agenda: To review and evaluate grant
                                          from governmental authorities, may be                                                                         applications.
                                                                                                  Director, Office of Federal Advisory                    Place: Residence Inn Bethesda, 7335
                                          requested to continue to investigate the                Committee Policy.
                                          reported violation. Once the                                                                                  Wisconsin Avenue, Bethesda, MD 20814.
                                                                                                  [FR Doc. E8–8044 Filed 4–15–08; 8:45 am]                Contact Person: Betty Hayden, PhD,
                                          investigation is completed, and
                                                                                                  BILLING CODE 4140–01–M                                Scientific Review Officer, Center for
                                          especially if the investigation ultimately                                                                    Scientific Review, National Institutes of
                                          reveals that criminal, civil, or                                                                              Health, 6701 Rockledge Drive, Room 4206,
                                          administrative violations have occurred,                                                                      MSC 7812, Bethesda, MD 20892, 301–435–
                                                                                                  DEPARTMENT OF HEALTH AND
                                          the compliance officer should notify the                                                                      1223, haydenb@csr.nih.gov.
                                                                                                  HUMAN SERVICES
                                          appropriate governmental authority of                                                                           Name of Committee: Center for Scientific
                                          the outcome of the investigation. This                  National Institutes of Health                         Review Special Emphasis Panel; Pilot-scale
                                          notification should include a                                                                                 Libraries for High-throughput Screening.
                                          description of the impact of the alleged                Center for Scientific Review; Notice of                 Date: May 29, 2008.
                                          violation on the applicable Federal                     Closed Meetings                                         Time: 8:30 a.m. to 6 p.m.
                                          health care programs or their                                                                                   Agenda: To review and evaluate grant
                                                                                                     Pursuant to section 10(d) of the                   applications.
                                          beneficiaries.
                                                                                                  Federal Advisory Committee Act, as                      Place: St. Gregory Hotel, 2033 M Street,
                                          VI. Conclusion                                          amended (5 U.S.C. Appendix 2), notice                 NW., Washington, DC 20036.
                                                                                                                                                          Contact Person: Mike Radtke, PhD,
                                             In today’s environment of increased                  is hereby given of the following                      Scientific Review Officer, Center for
                                          scrutiny of corporate conduct and                       meetings.                                             Scientific Review, National Institutes of
                                          increasingly large expenditures for                        The meetings will be closed to the                 Health, 6701 Rockledge Drive, Room 4176,
                                          health care, it is imperative for nursing               public in accordance with the                         MSC 7806, Bethesda, MD 20892, 301–435–
                                          facilities to establish and maintain                    provisions set forth in sections                      1728, radtkem@csr.nih.gov.
                                          effective compliance programs. These                    552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,              Name of Committee: Infectious Diseases
                                          programs should foster a culture of                     as amended. The grant applications and                and Microbiology Integrated Review Group;
                                          compliance and a commitment to                          the discussions could disclose                        Drug Discovery and Mechanisms of
                                          delivery of quality health care that                    confidential trade secrets or commercial              Antimicrobial Resistance Study Section.
                                          begins at the highest levels and extends                property such as patentable material,                   Date: May 29–30, 2008.
                                          throughout the organization. This                       and personal information concerning                     Time: 8 p.m. to 5 p.m.
                                                                                                  individuals associated with the grant                   Agenda: To review and evaluate grant
                                          supplemental CPG is intended as a
                                                                                                                                                        applications.
                                          resource for nursing facilities to help                 applications, the disclosure of which                   Place: Doubletree Hotel Bethesda, 8120
                                          them operate effective compliance                       would constitute a clearly unwarranted                Wisconsin Avenue, Bethesda, MD 20814.
                                          programs that decrease errors, fraud,                   invasion of personal privacy.                           Contact Person: Tera Bounds, DVM, PhD,
                                          and abuse and increase compliance with                    Name of Committee: Center for Scientific            Scientific Review Officer, Center for
                                          Federal health care program                             Review Special Emphasis Panel; Member                 Scientific Review, National Institutes of
                                          requirements for the benefit of the                     Conflicts: Psychopharmacology.                        Health, 6701 Rockledge Drive, Room 3198,
                                          nursing facilities and their residents.                   Date: May 21–22, 2008.                              MSC 7808, Bethesda, MD 20892, (301) 435–
                                                                                                    Time: 8 a.m. to 8 p.m.                              2306, boundst@csr.nih.gov.
                                            Dated: April 10, 2008.
                                                                                                    Agenda: To review and evaluate grant                  Name of Committee: Endocrinology,
                                          Daniel R. Levinson,                                     applications.                                         Metabolism, Nutrition and Reproductive
                                          Inspector General.                                        Place: National Institutes of Health, 6701          Sciences Integrated Review Group; Clinical
                                          [FR Doc. E8–7993 Filed 4–15–08; 8:45 am]                Rockledge Drive, Bethesda, MD 20892                   and Integrative Diabetes and Obesity Study
                                          BILLING CODE 4152–01–P                                  (Virtual Meeting).                                    Section.
                                                                                                    Contact Person: Christine L. Melchior,                Date: June 5–6, 2008.
                                                                                                  PhD, Scientific Review Officer, Center for              Time: 8 a.m. to 3 p.m.
                                          DEPARTMENT OF HEALTH AND                                Scientific Review, National Institutes of               Agenda: To review and evaluate grant
                                          HUMAN SERVICES                                          Health, 6701 Rockledge Drive, Room 5176,              applications.
                                                                                                  MSC 7844, Bethesda, MD 20892, (301) 435–                Place: San Francisco Airport Marriott, 1800
                                          National Institutes of Health                           1713, melchioc@csr.nih.gov.                           Old Bayshore Highway, Burlingame, CA
                                                                                                    Name of Committee: Endocrinology,                   94010.
                                          Center For Scientific Review; Amended                   Metabolism, Nutrition and Reproductive                  Contact Person: Nancy Sheard, SCD,
                                                                                                  Sciences Integrated Review Group;                     Scientific Review Officer, Center for
                                          Notice of Meeting
                                                                                                  Integrative Physiology of Obesity and                 Scientific Review, National Institutes of
                                            Notice is hereby given of a change in                 Diabetes Study Section.                               Health, 6701 Rockledge Drive, Room 6046–E,
                                          the meeting of the Cell Structure and                     Date: May 29–30, 2008.                              MSC 7892, Bethesda, MD 20892, (301) 435–
                                                                                                                                                        1154, sheardn@csr.nih.gov.
jlentini on PROD1PC65 with NOTICES




                                          Function Study Section, June 4, 2008, 8                   Time: 8 a.m. to 3 p.m.
                                                                                                    Agenda: To review and evaluate grant                  Name of Committee: Oncological Sciences
                                             136 See 63 FR 58399 (October 30, 1998),              applications.                                         Integrated Review Group; Cancer Etiology
                                          ‘‘Publication of the OIG’s Provider Self-Disclosure       Place: Hyatt Regency Bethesda, One                  Study Section.
                                          Protocol,’’ available on our Web site at http://        Bethesda Metro Center, 7400 Wisconsin                   Date: June 9–10, 2008.
                                          oig.hhs.gov/authorities/docs/selfdisclosure.pdf.        Avenue, Bethesda, MD 20814.                             Time: 8 a.m. to 4 p.m.



                                     VerDate Aug<31>2005   17:19 Apr 15, 2008   Jkt 214001   PO 00000   Frm 00089   Fmt 4703   Sfmt 4703   E:\FR\FM\16APN1.SGM   16APN1
